                                              The Office of Inspector General
                                            (OIG) Hotline is a convenient
                                            mechanism employees,
                                            contractors, and others can use
                                            to report instances of suspected
                                            fraud, waste, abuse, and
mismanagement within the FDIC and its contractor operations. The OIG
maintains a toll-free, nationwide Hotline (1-800-964-FDIC), electronic mail
address (IGhotline@FDIC.gov), and postal mailing address. The Hotline
is designed to make it easy for employees and contractors to join with
the OIG in its efforts to prevent fraud, waste, abuse, and mismanagement
that could threaten the success of FDIC programs or operations.
 To learn more about the FDIC OIG and for more information on audit
and evaluation reports discussed in this Semiannual Report, visit our
homepage: http://www.fdicig.gov



Federal Deposit Insurance Corporation
Office of Inspector General
3501 Fairfax Drive
Arlington, VA 22226
                                                                 he FDIC OIG is a proud member of the President’s Council

                                                         T       on Integrity and Efficiency, whose fiscal year 2007
                                                                 significant activities and accomplishments, along with
                                                        those of the member agencies of the Executive Council on Integrity
                                                        and Efficiency were captured in the Inspector General community’s
                                                        annual report, A Progress Report to the President, Fiscal Year 2007.
                                                          In fiscal year 2007, the Inspectors General identified potential
                                                        dollar savings as well as program efficiencies and enhancements
                                                        from a range of audits, investigations, evaluations, and inspections.
                                                        The Inspector General community was also responsible for
                                                        successful investigations of individuals and entities who threatened
                                                        government integrity and the public trust. Cumulatively, these
                                                        efforts resulted in: $11.4 billion in potential savings from audit
                                                        recommendations; $5.1 billion from investigative recoveries and
                                                        receivables; over 6,800 indictments and criminal informations; over
                                                        8,900 successful criminal prosecutions; about 4,300 suspensions or
                                                        debarments; and nearly 310,000 hotline complaints processed.
                                                          The 2007 annual report also focuses on the many collaborative
                                                        efforts of Inspectors General across government. By joining forces to
                                                        tackle issues of mutual concern, the Inspector General community
                                                        has leveraged resources to better address current multi-agency
The Federal Deposit Insurance Corporation (FDIC)        problems, working proactively to prevent such problems in the
is an independent agency created by the Congress        future.
to maintain stability and confidence in the nation’s      As noted in the report, the Inspector General community
banking system by insuring deposits, examining          also continued to commit a substantial portion of its resources
and supervising financial institutions, and managing    to auditing agency financial statements. Collectively, this
receiverships. Approximately 4,500 individuals          effort represents one of the largest financial statement audit
                                                        engagements ever undertaken. Similarly, Inspectors General played
within seven specialized operating divisions and        a key role in performing annual evaluations of agency information
other offices carry out the FDIC mission throughout     system security and privacy protection. Finally, by identifying
the country. According to most current FDIC data,       and helping agencies address management and performance
the FDIC insured $4.29 trillion in deposits for 8,544   challenges, Inspectors General fostered government accountability
institutions, of which the FDIC supervised 5,192. The   and transparency, all on behalf of the U.S. taxpayers.
Corporation held insurance funds of $52.4 billion to     For access to this report and a more detailed look at the Inspector
ensure depositors are safeguarded.                      General community, visit www.ignet.gov/pcieecie1.html.
Inspector
General’s
Statement

       am pleased to present the accomplishments of

 I     the Federal Deposit Insurance Corporation (FDIC)
       Office of Inspector General (OIG) for the 6-month
period ending March 31, 2008. During that time frame,
my office has continued to conduct its audits, evaluations,
investigations and other activities in full support of the
FDIC’s successful accomplishment of its mission. This comes
at a time when the Corporation and its fellow regulators are
facing many challenges associated with risks from economic
conditions, fallout from recent unsustainable mortgage
lending practices, and disruptions in the credit and capital
markets.
  Our investigations, in particular, have yielded very
positive results over the past 6 months—resulting in nearly
$87 million in potential fines, restitution, and monetary
recoveries—more than double the amount from our last
reporting period. Of note, and as discussed in previous
semiannual reports, during this reporting period we
concluded a 6-year investigation related to the 2002
failure of Oakwood Deposit Bank Company, Oakwood,
Ohio. Our investigation has involved many defendants
over the years, and most recently, two individuals involved
in the embezzlement of funds that led to Oakwood’s
failure were sentenced to substantial prison terms and
ordered to pay $41 million in restitution to the FDIC and
$500,000 to the Internal Revenue Service. This semiannual
report also presents the outcomes of a number of other
successful investigations involving a growing number of
mortgage fraud schemes, bank fraud, money laundering,
obstruction of examinations, securities fraud, and misrepre-
sentation of FDIC insurance or affiliation. Many of those
involved in perpetrating such crimes have received stiff
sentences and corresponding fines, and we are especially
appreciative of the efforts of FDIC staff and our partners
in the law enforcement community for helping us bring
these individuals to justice. We continue expanding the
OIG’s investigative presence by aligning our investigative
resources with the FDIC regions to ensure ongoing
investigative success.
 Our audit and evaluation work produced 15 reports and 52
nonmonetary recommendations, with several assignments
addressing issues of importance to the Corporation as it
works to ensure a strong examination and supervision
process in a volatile and ever-changing financial services
environment. Such work included an audit of the FDIC’s
consideration of commercial real estate concentration

   Office of Inspector General – Semiannual Report to the Congress 3
risk in FDIC-supervised institutions and another audit of
the FDIC’s implementation of supervisory guidance for
non-traditional mortgage products. To keep current with
industry trends, in November 2007, we also joined our
colleagues from the Department of the Treasury, Federal
Reserve Board, and National Credit Union Administration
OIGs in hosting an Emerging Issues Symposium, the theme
of which was: Consumer, Credit, and Capital Issues in a
Changing Economy. In that connection, we have maintained
ongoing communications and information-sharing with
our fellow financial regulatory agency OIGs to leverage
our resources and knowledge so that we are well prepared
for any upswings in bank failures that might necessitate
the conduct of statutorily-mandated material loss reviews
to determine the causes of institution failures that result
in substantial losses to the Deposit Insurance Fund. Our
evaluations group will continue to be responsive to FDIC
management-requested work on topics of significance to
the Corporation in the coming months.
  As the FDIC prepares to celebrate its 75th anniversary,
it operates in an uncertain environment somewhat
reminiscent of circumstances surrounding its creation in
1933. We remain committed to our cooperative working
relationships with the Chairman, Vice Chairman, and
other FDIC management officials; our OIG colleagues; and
members of the Congress and their staffs as we look to the
future and work to help the FDIC ensure the longstanding
tradition of stability and public confidence in the nation’s
banking system.




Jon T. Rymer
Inspector General
April 30, 2008




4 Office of Inspector General – Semiannual Report to the Congress
                                                                              Table of
                                                                              Contents


Inspector General’s Statement .....................................................................................................................................................3
Abbreviations and Acronyms .......................................................................................................................................................6
Highlights and Outcomes ..............................................................................................................................................................7

Strategic Goal Areas
Supervision: Assist the FDIC to Ensure the Nation’s Banks Operate Safely and Soundly ....................................11
Insurance: Help the FDIC Maintain the Viability of the Insurance Fund .................................................................... 21
Consumer Protection: Assist the FDIC to Protect Consumer Rights and Ensure
                     Customer Data Security and Privacy ........................................................................................ 23
Receivership Management: Help Ensure that the FDIC is Ready to Resolve Failed
                         Banks and Effectively Manages Receiverships ........................................................... 27
Resources Management: Promote Sound Governance and Effective Stewardship
                      and Security of Human, Financial, Information Technology, and Physical
                      Resources...................................................................................................................................... 30
OIG Internal Processes: Build and Sustain a High-Quality Staff, Effective Operations,
                        OIG Independence, and Mutually Beneficial Working Relationships ......................... 37
Reporting Requirements ............................................................................................................................................................. 43
Information Required by the Inspector General Act of 1978, as amended ............................................................... 44
Congratulations and Farewell .................................................................................................................................................... 49




                                                                                    Office of Inspector General – Semiannual Report to the Congress 5
Abbreviations and
Acronyms

     BSA          Bank Secrecy Act
     CAS          Claims Administration System
     COSO         Committee of Sponsoring Organizations
     CRE          commercial real estate
     DCAA         Defense Contract Audit Agency
     DIT          Division of Information Technology
     DRR          Division of Resolutions and Receiverships
     DSC          Division of Supervision and Consumer Protection
     ECIE         Executive Council on Integrity and Efficiency
     ECU          Electronic Crimes Unit
     ERM          Enterprise Risk Management
     FBI          Federal Bureau of Investigation
     FDIC         Federal Deposit Insurance Corporation
     FEDSIM       Federal Systems Integrations and Management
     FFIEC        Federal Financial Institutions Examination Council
     FNBB         First National Bank of Blanchardville
     FY           fiscal year
     GAO          U.S. Government Accountability Office
     GPRA         Government Performance and Results Act of 1993
     GSA          General Services Administration
     IFCH         Interfinancial Holdings
     IRS          Internal Revenue Service
     ISC          Infrastructure Services Contract
     IT           Information Technology
     MDPS         Multi-regional Data Processing Servicers
     NTM          nontraditional mortgage
     OERM         Office of Enterprise Risk Management
     OFAC         Office of Foreign Assets Control
     OI           Office of Investigations
     OIG          Office of Inspector General
     OMB          Office of Management and Budget
     OTS          Office of Thrift Supervision
     PCIE         President’s Council on Integrity and Efficiency
     RTC          Resolution Trust Corporation
     SAER         Summary Analysis of Examination Report
     SRA          Systems Research Applications International, Inc.
     TSP          technology service provider




6 Office of Inspector General – Semiannual Report to the Congress
Highlights and
Outcomes
         he OIG’s 2008 Business Plan contains five strategic

 T       goals that are closely linked to the FDIC’s mission,
         programs, and activities, and one that focuses on
the OIG’s internal business and management processes.
These highlights show our progress in meeting these goals
during the reporting period. A more in-depth discussion of
OIG audits, evaluations, investigations, and other activities in
pursuit of these goals follows.

Strategic Goal 1
Supervision: Assist the FDIC to Ensure the
Nation’s Banks Operate Safely and Soundly
  Our work in helping to ensure that the nation’s banks
operate safely and soundly takes the form of audits,
investigations, evaluations, and extensive communication
and coordination with FDIC divisions and offices, law
enforcement agencies, other financial regulatory OIGs, and
banking industry officials. During the reporting period,
we completed our audit of the FDIC’s consideration of
commercial real-estate concentration risk in FDIC-supervised
institutions, making recommendations to clarify guidance
and instructions to better ensure that associated risk
is considered by institution management and in the
examination process. We also issued a report on the
implementation of the FDIC’s supervisory guidance
for nontraditional mortgage products, focusing on the
FDIC’s response to worsening conditions in the mortgage
industry and looking at the relatively small number of
FDIC-supervised institutions with significant involvement
in such products. Another of our audits reviewed the
FDIC’s implementation of the USA PATRIOT Act, noting
that comprehensive examination procedures are in place
to evaluate institution compliance with the anti-money
laundering and terrorist financing provisions of the Act. We
made two recommendations to improve the Corporation’s
overall approach for PATRIOT Act compliance.
  With respect to investigative work, as a result of
cooperative efforts with U.S. Attorneys throughout the
country, numerous individuals were prosecuted for
financial institution fraud, and we achieved successful
results in combating a number of mortgage fraud schemes.
Particularly noteworthy results include the stiff sentencings
of multiple subjects for mortgage fraud. To illustrate, a Dallas
businessman was sentenced to 262 months of incarceration
and ordered to pay restitution of $2 million. In another case,
an Illinois businessman and his associate were sentenced to




   Office of Inspector General – Semiannual Report to the Congress 7
235 months and 97 months, respectively, for their role in an        to customer and consumer information and applied
$8 million real estate land flip scheme. Another purported          consistently across FDIC regions. At the end of the reporting
real estate investor was sentenced to 11 years in prison and        period, we had several assignments ongoing or planned
ordered to pay $1.4 million to victim banks and mortgage            in support of this goal, including an audit of consumer
lenders. In another case involving bank fraud, the former           credit underwriting practices in community banks and an
president and chief executive officer of Farmers Deposit            evaluation of the FDIC’s Consumer Response Center.
Bank, Eminence, Kentucky, was sentenced to 36 months of
                                                                      From an investigative standpoint, as a result of an ongoing
incarceration and ordered to pay restitution of more than
                                                                    investigation, two securities sales representatives pleaded
$13 million to the bank. Another of our investigations led to
                                                                    guilty to a fraud scheme where they misled elderly investors
the sentencing of the former president and loan officer of
                                                                    into believing that their funds were invested in FDIC-insured
the Bank of Paxton to 60 months of incarceration, and he
                                                                    certificates of deposit when, in fact, they were not. The OIG’s
was similarly ordered to pay restitution of $4.9 million to the
                                                                    Electronic Crimes Unit (ECU) was also successful in working
bank. The Office of Investigations also continued its close
                                                                    to deactivate 10 fraudulent email accounts involving false
coordination and outreach with the Division of Supervision
                                                                    claims of FDIC insurance or affiliation. The ECU responded
and Consumer Protection (DSC), the Division of Resolutions
                                                                    to Internet-based schemes where the FDIC and OIG Web
and Receiverships, and the Legal Division by way of
                                                                    sites were misused to entice consumers to divulge personal
attending quarterly meetings, regional training forums,
                                                                    information and successfully shut down two Web sites used
and regularly scheduled meetings with DSC and the Legal
                                                                    for such purposes. (See pages 23-26.)
Division to review Suspicious Activity Reports and identify
cases of mutual interest. (See pages 11-20.)
                                                                    Strategic Goal 4
Strategic Goal 2                                                    Receivership Management: Help Ensure that
Insurance: Help the FDIC Maintain the Viability                     the FDIC is Ready to Resolve Failed Banks and
of the Insurance Funds                                              Effectively Manages Receiverships
  We conducted audit work related to the FDIC’s receipt and           At FDIC management’s request, we completed an
assessment of savings association subsidiary notices, at the        evaluation assignment related to the FDIC’s Claims
request of staff from the U.S. Senate Committee on Banking,         Administration System, a development effort to automate
Housing and Urban Affairs. We reported that the FDIC had            the handling of deposit insurance determination functions
developed an adequate control process for reviewing the             and the processing and payment of claims associated with
subsidiary notices that it received from institutions. At the       failed financial institutions. We made four suggestions to
end of the reporting period, ongoing or planned work in             management as a result. We also continued to monitor
this goal area included an audit of the Corporation’s off-site      the FDIC’s Strategic Readiness Project. At the end of the
monitoring activities for insurance risk and an audit of the        reporting period, the OIG’s ongoing or planned work
FDIC’s investment management practices related to the               in support of this strategic goal area included an audit
Deposit Insurance Fund, the results of which will be included       of internal control in the FDIC’s receivership accounting
in an upcoming semiannual report. (See pages 21-22.)                process and an audit of protection of resolution and
                                                                    receivership data managed or maintained by FDIC
                                                                    contractors.
Strategic Goal 3
Consumer Protection: Assist the FDIC to Protect                       We continued to pursue concealment of assets
                                                                    investigations related to the more than $1.7 billion in
Consumer Rights and Ensure Customer Data
                                                                    criminal restitution that the FDIC is owed. In connection with
Security and Privacy                                                one such investigation, during the reporting period a debtor
  Audits and investigations contributed to the FDIC’s               who had previously claimed he could not pay was ordered
protection of consumers in several ways. We completed               to make a restitution payment of more than $400,000 to the
our audit of examination procedures for assessing                   FDIC. (See pages 27-29.)
controls to protect customer and consumer information
at multi-regional data processing servicers. In that
report we made recommendations to better ensure
examination procedures at technology service providers
are commensurate with the risk of unauthorized access

8 Office of Inspector General – Semiannual Report to the Congress
Strategic Goal 5                                                vacancies. We also conducted Virtual Workforce Training
                                                                for all OIG staff to foster an office-wide understanding of
Resources Management: Promote Sound
                                                                issues related to implementing and carrying out a telework
Governance and Effective Stewardship and                        program that increases productivity, improves the quality
Security of Human, Financial, IT, and Physical                  of work life and morale, and best serves our entire office
Resources                                                       as we carry out our respective responsibilities under the
  The OIG devoted substantial resources to this goal area       Inspector General Act. Further, we continued a project to
during the reporting period, resulting in a variety of issues   upgrade the OIG’s audit and evaluation tracking system and
addressed. Of note with respect to this strategic goal,         began an associated review of how we are using TeamMate
we issued the results of our review of the Corporation’s        as we conduct audits and evaluations to better leverage that
enterprise risk management program, making seven                technology and ensure efficiency in our work
recommendations and two suggestions for enhancements.             In the interest of ensuring quality and efficiency in our work
At the Chairman’s request, we also assessed the integrity       and operations, we completed revising the Office of Audits
of the FDIC’s information technology (IT) procurement           Policy and Procedures Manual to address changes in the
activity and the FDIC’s governance framework related to the     performance audit standards and process changes deemed
selection, management, and evaluation of IT projects and        advisable as a result of an internal assignment management
made recommendations for enhancements in both areas.            review and external peer review results. We also awarded a
We performed a related audit to assess the FDIC’s contract      contract to a qualified firm to provide audit and evaluation
oversight management of its $357 million IT infrastructure      services to the OIG to enhance the quality of our work and
services contract and support for payments made by the          the breadth of our expertise. We took steps to better track
FDIC under the contract, making recommendations in that         costs associated with audits and evaluations in the interest
report to strengthen governance and promote transparency        of economy and efficiency. We continued use of the OIG’s
and communication throughout the infrastructure services        end-of-assignment feedback forms to provide staff with
contract program.                                               input on performance of individual audit and evaluation
  We issued several other audit and evaluation reports in       assignments and incorporated suggested improvements
this goal area and made suggestions to improve the quality      to the form. We also developed a new Inspector General
and reliability of the Corporation’s telework participation     feedback form for Office of Audits and Office of Evaluations
data and further enhance security of data used when             assignments that focuses on overall assignment quality
teleworking; strengthen controls over the headquarters          elements, including time, cost, and value.
and Dallas transit subsidy programs; enhance features of          We encouraged individual growth through professional
the Corporation’s IT disaster recovery program and related      development by way of initiatives such as revising career
security controls; and enhance controls for the continuous      development plans to better align them with OIG goals
replacement and disposal process for laptop computers. We       and integrating training plans for OIG staff in the career
also promoted integrity in FDIC internal operations through     development plans, continuing the OIG mentoring
ongoing OIG Hotline referrals and coordination with the         program, advertising two expressions of interest for forensic
FDIC’s Ethics Office. (See pages 30-36.)                        accountants to assist investigators in conducting financial
                                                                institution fraud cases, and offering opportunities for OIG
Strategic Goal 6                                                staff to attend graduate schools of banking.
OIG Internal Processes: Build and Sustain a                       Our office continued to foster positive stakeholder
High-Quality OIG Staff, Effective Operations, OIG               relationships by way of Inspector General and other
Independence, and Mutually Beneficial Working                   OIG executive meetings with senior FDIC executives;
Relationships                                                   presentations at Audit Committee meetings; congressional
                                                                interaction; and coordination with financial regulatory
 We continued to focus on a number of internal activities in    OIGs, other members of the Inspector General community,
this goal area during the past 6 months.                        other law enforcement officials, and the Government
  To ensure effective and efficient management of OIG           Accountability Office (GAO). Members of the OIG Employee
resources, among other activities, we continued realignment     Advisory Group continued their quarterly meetings with the
of the OIG investigative resources with FDIC regions, by        Inspector General, the OIG participated in corporate diversity
reassigning Office of Investigations staff and advertising      events, and we maintained and updated the OIG Web site


                                                                   Office of Inspector General – Semiannual Report to the Congress 9
 Significant Outcomes
 (October 2007 - March 2008)
 Audit and Evaluation Reports Issued                                                  15
 Nonmonetary Recommendations                                                          52
 Investigations Opened                                                                37
 Investigations Closed                                                                39
 OIG Subpoenas Issued                                                                  3
 Judicial Actions:
 Indictments/Informations                                                             78
 Convictions                                                                          42
 Arrests                                                                              13
 OIG Investigations Resulted in:
 Fines of                                                                         $3,550
 Restitution of                                                              $83,354,075
 Asset Forfeiture of                                                           $3,090,081
 Other Monetary Recoveries of                                                   $490,601
 Total                                                                      $86,938,307
 Cases Referred to the Department of Justice (U.S. Attorney)                          44
 Cases Referred to FDIC Management                                                     0
 OIG Cases Conducted Jointly with Other Agencies                                     129
 Hotline Allegations Referred                                                         78
 Proposed Regulations and Legislation Reviewed                                         6
 Proposed FDIC Policies Reviewed                                                      14
 Responses to Requests and Appeals under the Freedom of Information Act                1


to provide easily accessible information to stakeholders             facing the FDIC, and provided this assessment to FDIC
interested in our office and the results of our work.                management for inclusion in the Corporation’s performance
                                                                     and accountability report. We will also factor this assessment
  In the area of enhancing OIG risk management activities,
                                                                     into our FY 2009 planning. We submitted the OIG’s 2007
we continued efforts to carry out and monitor the OIG’s
                                                                     Assurance Statement to the FDIC Chairman, in accordance
fiscal year (FY) 2008 business planning process, including
                                                                     with the annual requirement under which the OIG provides
holding a quarterly meeting to assess progress, and began
                                                                     assurance that the OIG has made a reasonable effort to meet
planning for FY 2009, including ensuring ongoing research
                                                                     the internal control requirements of the Federal Managers’
and analysis of significant activities and risks within the
                                                                     Financial Integrity Act, OMB A-123, and other key legislation.
Corporation and the financial services industry. We also
                                                                     At GAO’s request, we provided the OIG’s perspectives related
participated regularly at corporate meetings of the National
                                                                     to internal fraud risk at the FDIC in connection with GAO’s
Risk Committee to monitor emerging risks at the Corporation
                                                                     responsibility under Statement of Auditing Standards No. 99,
and tailor OIG work accordingly. In accordance with the
                                                                     Consideration of Fraud in Financial Statement Audits. (See
Reports Consolidation Act of 2000, we assessed the most
                                                                     pages 37-42.)
significant management and performance challenges




10 Office of Inspector General – Semiannual Report to the Congress
Strategic Goal 1:
The OIG Will Assist the FDIC
to Ensure the Nation’s Banks
Operate Safely and Soundly

          he Corporation’s supervision program promotes

 T        the safety and soundness of FDIC-supervised
          insured depository institutions. As of March 31,
2008, the FDIC was the primary federal regulator for 5,192
FDIC-insured, state-chartered institutions that were not
members of the Federal Reserve System (generally referred
to as “state non-member” institutions). The Department of
the Treasury (the Office of the Comptroller of the Currency
and the Office of Thrift Supervision) or the Federal Reserve
Board supervise other banks and thrifts, depending on
the institution’s charter. The Corporation also has back-up
examination authority to protect the interests of the
deposit insurance fund for more than 3,300 national banks,
state-chartered banks that are members of the Federal
Reserve System, and savings associations.
  The examination of the institutions that it regulates is a
core FDIC function. During 2007, the Corporation conducted
2,258 safety and soundness examinations, including a
review of Bank Secrecy Act (BSA) compliance, and all
required follow-up examinations for FDIC-supervised
problem institutions within prescribed timeframes.
Through this process, the FDIC assesses the adequacy of
management and internal control systems to identify,
measure, and control risks; and bank examiners judge
the safety and soundness of a bank’s operations. The
examination program employs risk-focused supervision for
banks. According to examination policy, the objective of a
risk-focused examination is to effectively evaluate the safety
and soundness of the bank, including the assessment of risk
management systems, financial condition, and compliance
with applicable laws and regulations, while focusing
resources on the bank’s highest risks.
  Part of the FDIC’s overall responsibility and authority
to examine banks for safety and soundness relates
to compliance with the BSA, which requires financial
institutions to keep records and file reports on certain
financial transactions. FDIC-supervised institutions must
establish and maintain procedures to comply with BSA
requirements. An institution’s level of risk for potential
terrorist financing and money laundering determines
the necessary scope of the BSA examination. In a related
vein, the U.S. Department of the Treasury’s Office of
Foreign Assets Control (OFAC) promulgates, develops,
and administers economic and trade sanctions such as
trade embargoes, blocked assets controls, and other

  Office of Inspector General – Semiannual Report to the Congress 11
commercial and financial restrictions under the provisions           is the first line of defense against fraud, and the banks’
of various laws. Generally, OFAC regulations prohibit                independent auditors are the second line of defense.
financial institutions from engaging in transactions with            Because fraud is both purposeful and hard to detect, it can
the governments of, or individuals or entities associated            significantly raise the cost of a bank failure, and examiners
with, foreign countries against which federal law imposes            must be alert to the possibility of fraudulent activity in
economic sanctions. A challenge for the FDIC is to provide           financial institutions.
effective oversight of FDIC-supervised institutions’
                                                                       The OIG’s Office of Investigations works closely with FDIC
compliance with BSA and OFAC regulations.
                                                                     management in DSC and the Legal Division to identify and
  In the event of an insured depository institution failure,         investigate financial institution crime, especially various
the Federal Deposit Insurance Act, requires the cognizant            types of fraud. OIG investigative efforts are concentrated on
OIG to perform a review when the Deposit Insurance Fund              those cases of most significance or potential impact to the
incurs a material loss. The FDIC OIG performs the review             FDIC and its programs. The goal, in part, is to bring a halt
if the FDIC is the primary regulator of the institution. The         to the fraudulent conduct under investigation, protect the
Department of the Treasury OIG and the OIG at the Board              FDIC and other victims from further harm, and assist the
of Governors of the Federal Reserve System perform                   FDIC in recovery of its losses. Pursuing appropriate criminal
reviews when their agencies are the primary regulators.              penalties not only serves to punish the offender but can
These reviews identify what caused the material loss,                also deter others from participating in similar crimes. Our
evaluate the supervision of the federal regulatory agency            criminal investigations can also be of benefit to the FDIC in
(including compliance with the Prompt Corrective Action              pursuing enforcement actions to prohibit offenders from
requirements of the Federal Deposit Insurance Act), and              continued participation in the banking system.
propose recommendations to prevent future failures. A loss
                                                                       When investigating instances of financial institution fraud,
is considered material to the insurance fund if it will exceed
                                                                     the OIG also defends the vitality of the FDIC’s examination
$25 million and 2 percent of the failed institution’s total
                                                                     program by investigating associated allegations or
assets. During the past year, three FDIC-insured institutions
                                                                     instances of criminal obstruction of bank examinations and
failed. None of these triggered the FDIC OIG’s conducting a
                                                                     by working with U.S. Attorneys’ Offices to bring these cases
material loss review. Our office, however, must be prepared
                                                                     to justice.
to conduct such a review, as necessary, and will coordinate
with the Division of Supervision and Consumer Protection               The OIG’s investigations of financial institution fraud
(DSC) and the Division of Resolutions and Receiverships              currently constitute about 85 percent of the OIG’s
(DRR) to ensure such readiness.                                      investigation caseload. Significantly, of 136 open cases as
                                                                     of the end of the reporting period, 38 (28 percent) involved
  Also of significance with respect to safety and soundness,
                                                                     mortgage fraud. The OIG is also committed to continuing
the FDIC and other federal banking agencies agreed to
                                                                     its involvement in interagency forums addressing fraud.
finalize rules implementing Basel II advanced capital
                                                                     Such groups include national and regional bank fraud,
requirements for large, complex banks. The agreement
                                                                     check fraud, mortgage fraud, cyber fraud, identity theft,
contains important safeguards against unrestrained
                                                                     and anti-phishing working groups. Additionally, the OIG
reductions in risk-based capital requirements for these
                                                                     engages in industry outreach efforts to keep financial
large institutions. It also provides for the development in
                                                                     institutions informed on fraud-related issues and to
the U.S. of the Basel II standardized approach as an option
                                                                     educate bankers on the role of the OIG in combating
for other banks. The FDIC will continue its work in this realm
                                                                     financial institution fraud.
to ensure strong regulatory capital standards.
                                                                      To assist the FDIC to ensure the nation’s banks operate
  The OIG’s audits and evaluations are designed to address
                                                                     safely and soundly, the OIG’s 2008 performance goals are
various aspects of the Corporation’s supervision and
                                                                     as follows:
examination activities, as illustrated in the write-ups that
follow. The OIG’s investigators also play a critical role               • Help ensure the effectiveness and efficiency of the
in helping to ensure the nation’s banks operate safely                    FDIC’s supervision program.
and soundly. The Corporation needs to guard against a
                                                                        • Investigate and assist in prosecuting BSA violations,
number of financial crimes and other threats, including
                                                                          money laundering, terrorist financing, fraud, and other
money-laundering, terrorist financing, data security
                                                                          financial crimes in FDIC-insured institutions.
breaches, and financial institution fraud. Bank management


12 Office of Inspector General – Semiannual Report to the Congress
OIG Work in Support of Goal 1                                      to the SAER would enable the FDIC to effectively capture
                                                                   and highlight CRE concentrations information and would
  The OIG’s Office of Audits issued three reports during
                                                                   provide a better means of updating the examination
the reporting period in support of our strategic goal of
                                                                   database.
helping to ensure the safety and soundness of the nation’s
banks. These audits addressed important aspects of the               We therefore recommended that the Director, DSC:
FDIC’s examination approaches to risks in FDIC-supervised          (1) clarify guidance regarding the use of the Concentrations
institutions, as described below. Ongoing or planned audit         page in the report of examination for institutions with
work in support of the goal area includes FDIC activities          potentially significant CRE loan concentrations and (2) clarify
addressing liquidity risks, DSC’s examination assessment           the SAER instructions so that potentially significant CRE loan
of interest rate risk, the examination ratings process, and        concentrations detected during the examination process
affiliate relationships.                                           are included, or add a line item to the SAER specifically for
                                                                   CRE concentrations. DSC agreed with both recommenda-
FDIC’s Consideration of Commercial Real Estate                     tions and committed to clarifying examiner guidance, by
Concentration Risk in FDIC-Supervised Institutions                 September 30, 2008, as DSC reviews and updates its risk
                                                                   management program.
  In this audit, we assessed the FDIC’s consideration of
institution commercial real estate (CRE) risk management
                                                                   Implementation of the FDIC’s Supervisory Guidance for
practices during its examination of institutions with
                                                                   Nontraditional Mortgage Products
identified CRE concentration risk.
                                                                     In another audit completed during the reporting
  We reported that concentrations in CRE lending have been
                                                                   period, we assessed (1) the implementation of the FDIC’s
rising in FDIC-supervised institutions and have reached
                                                                   Supervisory Guidance for Nontraditional Mortgage
record levels that could create safety and soundness
                                                                   Products (Supervisory Guidance—issued in March 2007)
concerns at these institutions in the event of a significant
                                                                   and (2) examination coverage of the loan terms and
economic downturn. CRE loans are land development and
                                                                   underwriting standards set forth in the Interagency
construction loans (including 1- to 4-family residential and
                                                                   Guidance on Nontraditional Mortgage Product Risks (NTM
commercial construction loans) and other land loans. The
                                                                   Guidance—issued in October 2006). The focus of our
risk profile for a CRE loan is sensitive to the condition of the
                                                                   review was on the FDIC’s response to worsening conditions
general CRE market (for example, market demand, vacancy
                                                                   in the mortgage industry, and our scope was limited to
rates, or rents).
                                                                   FDIC-supervised institutions. The FDIC has provided its
  We found that DSC examiners considered institution CRE           examiners the Supervisory Guidance and NTM Guidance
risk management practices during FDIC examinations of              to assist in assessing institutions’ NTM product activities,
institutions with potentially significant CRE concentration        including policies and procedures and risk management
risks. We also determined, however, that under FDIC                processes, recognizing that a number of different but
guidance, examiner use of a Concentrations page in the             prudent practices may exist.
report of examination for institutions that have potentially
                                                                     NTM products generally include mortgage loans with
significant CRE and other loan concentrations is optional,
                                                                   interest-only, payment-option adjustable rates, and/or
including for institutions with identified CRE concentration
                                                                   negative amortization terms. Borrowers increasingly turned
risks. Examiner use of the Concentrations page for reporting
                                                                   to NTMs to purchase homes in 2001-2005, when mortgage
potentially significant CRE and other loan concentrations
                                                                   rates remained historically low and home prices appreciated
is an important control for ensuring that associated risk,
                                                                   rapidly in many markets. Although NTM products have been
if any, is considered by institution management and in
                                                                   promoted as a way for consumers to make lower monthly
the examination process. Further, the Summary Analysis
                                                                   payments in the near term, there is significant risk that
of Examination Report (SAER), a tool DSC uses to ensure
                                                                   consumers may not understand that these loan products
that the level of oversight accorded to an institution is
                                                                   are structured in a manner that may cause future payment
commensurate with the level of risk it poses to the Deposit
                                                                   obligations to increase significantly. Also, some NTM
Insurance Fund, does not capture CRE concentrations as
                                                                   products have principal loan balances that increase due to
a separate category for tracking purposes. A key purpose
                                                                   negative amortization. This is particularly problematic when
of the SAER is to collect data from the examination for
                                                                   the value of the underlying collateral declines, making it
entry into the FDIC’s examination database. Including
                                                                   difficult to sell or refinance the property.
CRE concentrations or adding a CRE concentrations line

                                                                     Office of Inspector General – Semiannual Report to the Congress 13
  The FDIC expects institutions to effectively assess and              DSC provided a written response, stating that the FDIC is
manage the risks associated with NTM product activities              focusing its attention on significant risks from economic
and to ensure that new and relatively untested products are          conditions, the fallout from recent unsustainable mortgage
being appropriately underwritten, managed, and marketed.             lending practices, and disruptions in the credit and capital
The FDIC’s implementation of the Supervisory Guidance                markets to ensure that FDIC-supervised institutions respond
has provided a systematic process for the identification of          appropriately to maintain their safety and soundness.
FDIC-supervised institutions with significant involvement in
NTM product activities and the determination of supervisory          FDIC Implementation of the PATRIOT Act
strategies for those institutions. Further, the FDIC’s
examination coverage of institutions with NTM product                  During the reporting period, we also conducted an audit
activities has addressed the loan terms and underwriting             of the FDIC’s examination of FDIC-supervised institutions’
standards set forth in the NTM Guidance. These standards             compliance with the Uniting and Strengthening America
also provide certain protections for consumers. We                   by Providing Appropriate Tools Required to Intercept and
concluded that the FDIC’s guidance and examination                   Obstruct Terrorism Act of 2001 (PATRIOT Act). Our objectives
coverage have provided a means to identify and mitigate              were to determine whether (1) examination procedures
the risks to both institutions and consumers associated with         are designed to evaluate institution compliance with the
NTM product activities.                                              anti-money laundering and terrorist financing provisions
                                                                     of the PATRIOT Act and (2) those procedures were fully and
  The level of FDIC-supervised institution involvement               consistently implemented to provide reasonable assurance
in NTM products is relatively low. That is, through its              that institutions with weak programs for detecting money
identification process, the FDIC determined that 30 of               laundering and terrorist financing activity will be identified
approximately 5,250 FDIC-supervised institutions had                 and appropriate corrective measures taken.
significant involvement in NTM product activities. To
determine the scope and magnitude of NTM product                       We concluded that the FDIC has issued comprehensive
activities at these 30 institutions, the FDIC conducted on-site      examination procedures designed to assist examiners in
examinations or visitations. On a continuing basis, the FDIC         evaluating institution compliance with the anti-money
plans to identify and assess NTM product activities for              laundering and terrorist financing provisions of the
all FDIC-supervised institutions through the examination             PATRIOT Act and has taken other steps to strengthen
process. These actions have provided a means for the                 compliance with the PATRIOT Act. Generally, FDIC
FDIC to address the risks posed by NTM products to both              examiners implemented examination procedures related
institutions and consumers.                                          to the PATRIOT Act. However, the FDIC could enhance the
                                                                     implementation of examination procedures with respect
  For our sample of 15 of the 30 FDIC-supervised institutions        to institutions’ Customer Identification Programs and risk
identified with significant NTM product activities, DSC had          assessments. The report contained two recommendations
conducted on-site risk management examinations and                   to improve the FDIC’s overall supervisory approach for
visitations that covered the loan terms and underwriting             PATRIOT Act compliance. The FDIC’s planned actions were
standards set forth in the NTM Guidance. For another                 responsive to our recommendations.
sample of seven institutions, whose NTM product activities
fell under the thresholds DSC defined as significant,
                                                                     Successful OIG Investigations Uncover Financial
examiners had considered the extent of NTM product
                                                                     Institution Fraud
activities in planning risk management examinations.
Also, for those seven institutions, we determined that the             As mentioned previously, the OIG’s Office of Investigations’
examiners had assessed selected activities and controls              work focuses largely on fraud that occurs at or impacts
related to NTM products such as introductory rates,                  financial institutions. The perpetrators of such crimes can be
simultaneous second liens, and subprime borrowers.                   those very individuals entrusted with governance responsi-
The FDIC’s examinations and visitations have assisted in             bilities at the institutions—directors and bank officers. In
identifying and mitigating the risks to institutions and             other cases, individuals providing professional services to
consumers associated with NTM products in accordance                 the banks, others working inside the bank, and customers
with the NTM Guidance. As a result of these positive                 themselves are principals in fraudulent schemes.
findings, we did not make any recommendations in the
                                                                      The cases discussed below are illustrative of some of
report.
                                                                     the OIG’s most important investigative success during


14 Office of Inspector General – Semiannual Report to the Congress
  Keeping Current with Mortgage Fraud Activities Nationwide

  FDIC OIG investigators at headquarters and in OIG field offices currently participate in the following mortgage fraud
  working groups throughout the country and benefit from the perspectives, experience, and expertise of all parties
  involved in combating the growing incidence of mortgage fraud schemes.

 Headquarters                                National Bank Fraud Working Group, National Mortgage Fraud Working
                                             Sub-group.
 Northeast Region                            New York Mortgage Fraud Task Force, Eastern District New York Mortgage
                                             Fraud Task Force; the Northern Virginia Real Estate Fraud Task Force, Manassas,
                                             Va.; the New York-Pennsylvania Bank Fraud Working Group; and the Boston
                                             Bank Fraud Working Group.
 Southeast Region                            Southern District of Florida Mortgage Fraud Working Group.
 Midwest Region                              Chicago Mortgage Fraud Task Force, Dayton Area Mortgage Task Force,
                                             Cincinnati Area Mortgage Fraud Task Force, and Oregon Financial Crimes
                                             Working Group.

 Southwest Region                            Seattle Mortgage Fraud Working Group, FBI Seattle Mortgage Fraud Task
                                             Force, Mortgage Fraud Task Force for the Southern District of Mississippi,
                                             Oklahoma City Financial Crimes Suspicious Activity Report Review Work
                                             Group, North Texas Mortgage Fraud Working Group, the Eastern District of
                                             Texas Mortgage Fraud Task Force, the Texas Attorney General’s Residential
                                             Mortgage Fraud Task Force, Houston Mortgage Fraud Task Force, and the
                                             Los Angeles Mortgage Fraud Working Group.



the reporting period. These cases reflect the cooperative       large. Mortgage fraud can take a variety of forms and involve
efforts of OIG investigators, FDIC divisions and offices,       multiple individuals, as shown in the write-ups that follow.
U.S. Attorneys’ Offices, and others in the law enforcement
                                                                Dallas Businessman Sentenced to Nearly 22 Years in
community throughout the country.
                                                                Prison in Mortgage Fraud Scheme
  A growing number of our cases address the increased
                                                                  In the U.S. District Court for the Northern District of
incidence of mortgage fraud. Other significant cases during
                                                                Texas, a Dallas businessman was sentenced to 262 months
the reporting period involve securities fraud, obstruction
                                                                of incarceration, to be followed by 5 years of supervised
of an FDIC examination, embezzlement, money laundering,
                                                                release. He was also ordered to pay restitution in the amount
and bank fraud. The OIG’s success in all such investigations
                                                                of $2 million. As reported previously, the defendant and
contributes to ensuring the continued safety and soundness
                                                                three others were indicted in September 2005, in the U.S.
of the nation’s banks.
                                                                District Court for the Northern District of Texas, on seven
                                                                counts of bank fraud, mail fraud, wire fraud, and conspiracy.
Successful Mortgage Fraud Cases
                                                                  According to the indictment, from December 2002
  Our office has successfully investigated a number of          through March 2004, the four men engaged in a real estate
mortgage fraud cases over the past 6 months, several of         scheme to defraud various real estate lenders, buyers,
which are described below. Our involvement in such cases is     and sellers, including Fremont Investment & Loan. Three
supplemented by our participation in a growing number of        of the defendants located single family residences and
mortgage fraud task forces. According to the Federal Bureau     recruited straw purchasers and borrowers to purchase
of Investigation (FBI), mortgage fraud is one of the fastest    and finance the residences. Fraudulent loan documents
growing white-collar crimes. Such illegal activity can cause    were then submitted to the lenders in the name of the
financial ruin to homeowners and local communities. It can      straw borrowers, falsely indicating the down payment for
further impact local housing markets and the economy at         the loans had been made by the borrowers. One of the

                                                                   Office of Inspector General – Semiannual Report to the Congress 15
defendants, as an employee of the title company, would                   laundering in connection with this scheme. The licensed real
release the loan proceeds early to the three others, who                 estate appraiser at the time of the scheme pleaded guilty
would then purchase cashier’s checks in the name of the                  to all charges in an August 5, 2005, 11-count superseding
straw borrowers for the requisite down payment. They all                 indictment that charged the defendants with bank fraud,
caused inflated loan amounts to be funded by mortgage                    mail fraud, money laundering, and wire fraud. His sentencing
lenders and financial institutions, and conspired to distribute          has been postponed to allow him to be a witness at the
the fraudulently obtained loan proceeds among themselves                 mortgage broker’s trial.
and others. Three of the defendants also executed contracts                Joint investigation by the FDIC OIG, the FBI, and the U.S. Postal
between their company, Better Homes of Dallas, and the                   Inspection Service; prosecution is being handled by the U.S. Attorney’s
straw borrowers, stating the company would be responsible                Office for the Central District of Illinois.
for the loans, but they later failed to fulfill their contract.
 Joint investigation by the FDIC OIG and the FBI; prosecuted by the      Real Estate Investor Sentenced to 11 Years in Prison
U.S. Attorney’s Office for the Northern District of Texas and the U.S.
Department of Justice Antitrust Division.                                  On October 19, 2007, a purported real estate investor
                                                                         who owned and operated Rashad Investment Group was
                                                                         sentenced in the Northern District of Texas to 11 years of
Two Illinois Men Sentenced in $8 Million Real Estate “Land
                                                                         incarceration, to be followed by 60 months of supervised
Flip” Scheme
                                                                         release, and was ordered to pay $1,443,954 in restitution
   A Decatur, Illinois, businessman who organized an illegal             to victim banks and mortgage lenders. The defendant’s
real estate land flipping scheme was sentenced on March 5,               sentence is the result of a March 2007 conviction by a jury on
2008, in the U.S. District Court for the Central District of             all 14 counts of an indictment charging him with bank fraud,
Illinois, to 235 months of imprisonment, to be followed by               wire fraud, and money laundering.
60 months of supervised release. On March 12, 2008, in the
                                                                           The defendant received his lengthy sentence following
same U.S. District Court, a Riverton, Illinois, businessman and
                                                                         a 7-hour sentencing hearing where the government
an associate of the organizer in the same illegal real estate
                                                                         successfully argued to significantly increase the sentencing
scheme, was sentenced to 97 months of imprisonment, to be
                                                                         guideline range by including enhancements for having 10 or
followed by 60 months of supervised release. A hearing to
                                                                         more victims, sophisticated means, an organizer-leader role,
impose restitution is scheduled for both defendants in May
                                                                         identity theft, and relevant conduct for losses associated with
2008.
                                                                         mortgage loans on seven additional properties not included
  The indictment alleged that from 1999 through 2005,                                               in the indictment.
the Illinois businessman, his business associate, and their
                                                                                                      The defendant co-conspired
co-conspirators, an appraiser and mortgage broker, engaged
                                                                                                    with a loan officer from Liberty
in a real estate “land flipping” scheme to defraud real estate
                                                                                                    Mortgage Services and a loan
lenders, including Central Illinois Bank, Champaign, Illinois,
                                                                                                    broker and owner of 1st United
an FDIC- insured institution; buyers; and sellers. The scheme
                                                                                                    Mortgage. The defendants were
involved more than 150 fraudulent real estate sales and
                                                                                                    indicted in March 2006 in a
financing transactions totaling more than $8 million and
                                                                                                    14-count indictment charging
resulted in the defendants fraudulently obtaining more than
                                                                                                    bank fraud, wire fraud, and money
$3 million, which they converted to their personal use and to
                                                                                                    laundering. The indictment alleged
promote their ongoing scheme.
                                                                                                    that the defendant held himself out
  To carry out the scheme, the two defendants recruited                  as a real estate investor who owned and operated Rashad
buyers of modest means with little or no experience in rental            Investment Group. The defendant used the loan officer
real estate investment. To entice buyers, the defendants                 and the loan broker to originate and process fraudulent
allegedly made one or more false representations related to              mortgage loans. The defendants used schemes commonly
the properties, their appraised values, associated payments,             referred to in the mortgage industry as property flips,
and assistance and incentives for participation in property              mark-ups and kickbacks, and HUD swaps to facilitate this
purchases.                                                               fraud for profit scheme.
 Charges are pending against a mortgage broker for                        When conducting property flips, the defendants wrote
bank fraud, mail fraud, and conspiracy to commit money                   sales contracts to purchase residential real estate property


16 Office of Inspector General – Semiannual Report to the Congress
and then wrote separate sales contracts to immediately                defendant misapplied the proceeds of a loan and released
sell each property for a fraudulently inflated sales price. A         solvent borrowers from their loan obligations before the
mark-up and kickback was used when a seller of a property             obligations were satisfied.
was convinced to increase the sales price of their property             Joint investigation by the FDIC OIG and the FBI, based on a referral
and kick back the increased amount to one of the defendants           from the FDIC Legal Division and DSC; prosecuted by the U.S. Attorney’s
after the closing of the sale. A HUD swap was used when               Office for the Eastern District of Kentucky.
closing documents were signed to purchase a property
for one price, but a different set of closing documents was
                                                                      Former President of the Bank of Paxton Pleads Guilty to
submitted to the lender indicating a much higher purchase
                                                                      Bank Fraud and Obstruction of an FDIC Examination
price.
                                                                        On February 11, 2008, in the U.S. District Court for the
  In each instance, the defendant convinced inexperienced
                                                                      District of Nebraska, the former president and loan officer
real estate investors to stand in as straw borrowers and
                                                                      of the Bank of Paxton, Paxton, Nebraska, was sentenced
purchase the properties for fraudulently inflated sales
                                                                      to 60 months of incarceration, to be followed by 5 years of
prices. The loan officer and loan broker submitted false
                                                                      supervised release, and was ordered to pay $4.9 million in
documentation to the lenders to enable the straw borrowers
                                                                      restitution to the bank. The defendant pleaded guilty to
to qualify for the mortgage loans. Each of the straw
                                                                      one count of bank fraud and one count of obstructing the
borrowers received a financial inducement for participating
                                                                      examination of a financial institution in July 2007. The Bank
in the fraud scheme. Fraudulent real estate appraisals were
                                                                      of Paxton, an FDIC-regulated institution, lost approximately
also submitted to the lenders to support the inflated sales
                                                                      $3.9 million as a result of the defendant’s criminal activities.
prices of the properties. As a result of this fraud scheme, the
                                                                      The Bank of Paxton was scheduled to be closed on May 23,
lenders lost over $1 million. One of the banks impacted was
                                                                      2006, due to the fraud, but the bank owner recapitalized the
Fremont Investment & Loan, an FDIC-regulated institution.
                                                                      bank and prevented the closing.
 Joint investigation by the FDIC OIG and the FBI; prosecuted by the
U.S. Attorney’s Office for the Northern District of Texas               From January 2004 to March 2006, the defendant allegedly
                                                                      manipulated 12 loans totaling approximately $5 million for
                                                                      his benefit and the benefit of others. The loans were made
Other Investigative Case Results                                      with forged signatures and false financial statements. In
Former President and Chief Executive Officer of Farmers               addition, during the last two FDIC and state examinations,
Deposit Bank Sentenced to 36 Months in Prison                         the defendant allegedly falsified bank documents to conceal
                                                                      his fraudulent activity. Our investigation revealed that just
  On March 18, 2008, in the U.S. District Court for the               days before the start of bank examinations, the defendant
Eastern District of Kentucky, the former president                    posted positive information on nonperforming loans
and chief executive officer of Farmers Deposit Bank,                  to give the appearance that the loans were performing.
Eminence, Kentucky, was sentenced to serve 36 months of               Immediately after the examinations, the defendant reversed
incarceration, to be followed by 60 months of supervised              the postings. In addition, the defendant submitted false
release. The defendant was also ordered to pay restitution in         quarterly reports to the Bank of Paxton’s Board of Directors
the amount of $13,389,000 to Farmers Deposit Bank.                    to conceal his illegal activity.
 In October 2007, the defendant pleaded guilty to                       He also stole $300,000 from a wealthy Bank of Paxton
one count of bank fraud. He was previously charged in                 bank customer. The customer was on the Board of Directors
December 2006 with 29 counts of bank fraud and one count              and the defendant knew that he checked his account
of misapplication of bank funds. The indictment charged               infrequently. The defendant was able to steal money out of
that the defendant concealed substantial losses to the bank           the customer’s account and move it to his wife’s account and
by various methods, including making loans under false or             other accounts where he maintained control.
misleading names to nominee borrowers in an effort to keep
other loans current. The defendant was also charged with                Joint investigation by the FDIC OIG and the FBI, based on a referral
                                                                      from the DSC Kansas City Regional Office; prosecuted by the U.S.
altering documents (or causing documents to be altered)
                                                                      Attorney’s Office for the District of Nebraska.
that were presented to the Farmers Deposit Bank Board of
Directors, altering loan documents to postpone due dates,
and structuring loans to avoid detection by the bank’s                Former Exchange Bank President Sentenced
Board of Directors. The indictment also charged that the               On March 8, 2008, in the U.S. District Court for the District

                                                                         Office of Inspector General – Semiannual Report to the Congress 17
of Nebraska, the former president of Exchange Bank was                    As part of his plea agreement, the defendant stipulated to
sentenced to serve 30 months of incarceration, to be                     an action under 8(e) of the Federal Deposit Insurance Act,
followed by 60 months of supervised release, and was                     which provides for a lifetime ban from banking.
ordered to pay restitution in the amount of $717,194 to                    Joint investigation by the FDIC OIG and the FBI based on a referral
Exchange Bank. The defendant earlier pleaded guilty to one               from the DSC Kansas City Region; prosecuted by the U.S. Attorney’s
count of bank fraud with the stipulated amount of the loss               Office for the Southern District of Iowa.
not to exceed $840,000. Exchange Bank lost approximately
$1 million due to the alleged fraudulent activities of the               Former Bank Employee of BancFirst Sentenced to 7 Years
defendant.                                                               in Prison

  From July 2001 through June 2004, the former president                   On January 28, 2008, the former vault teller and teller
allegedly entered into loan agreements and loaned money                  supervisor at a branch office of BancFirst in Seminole,
from the bank to individuals for the purpose of inflating his            Oklahoma, was sentenced in the U.S. District Court for the
loan portfolio with Exchange Bank. When the loans were not               Eastern District of Oklahoma, to 84 months of incarceration,
paid off, the former president would take the money out of               to be followed by 60 months of supervised release. She was
third parties’ accounts with the bank without the account                also ordered to pay $3,576,627 in restitution.
holders’ knowledge in order to make payments on suspect                    The defendant pleaded guilty to an information in July
creditors’ loans and would then falsify documents to cover               2007 charging her with one count of false entries in the
up the illegal transaction.                                              books and records of an FDIC-insured bank and one count of
  In addition, the defendant directed individuals to provide             criminal forfeiture. The criminal forfeiture includes a money
false vehicle inventories and real estate information to                 judgment of $3,263,695 and forfeiture of personal property,
falsely represent collateral for questionable loans. He signed           including 11 motor vehicles and tractors, electronic
and approved the false financial documents, which gave                   entertainment equipment, furniture, and jewelry.
the impression that collateral was available for the loan in              The defendant admitted to creating false internal bank
question, when in fact, the collateral stated did not exist              documents showing the movement of cash in and out of
and the financial documents were materially false and                    the branch vault, and then separately creating false internal
inflated. When the defendant received cash payments from                 bank documents using the general ledger accounts to
individuals with questionable loans, he would not apply                  cure the account imbalances due to the initial false entries.
those cash transactions to loan payments but instead kept                Doing so allowed the defendant access to approximately
those payments for his own use.                                          $3,263,695.
  Joint investigation by the FDIC OIG and the FBI, based on a referral    The defendant stipulated to an action under 8(e) of the
from the DSC Kansas City Regional Office; prosecuted by the U.S.
                                                                         Federal Deposit Insurance Act, which provides for a lifetime
Attorney’s Office for the District of Nebraska.
                                                                         ban from banking.

Former Vice President of Operations at Burlington Bank &                   Joint investigation by the FDIC OIG and the FBI, coordinated with
                                                                         the Legal Division, Dallas Regional Counsel’s Office; prosecuted by the
Trust Sentenced to 37 Months in Prison
                                                                         U.S. Attorney’s Office for the Eastern District of Oklahoma.
  On February 13, 2008, the former vice president of
operations, Burlington Bank & Trust, Burlington, Iowa, was               Bank Customer Signs Plea Agreement
sentenced in the U.S. District Court for the Southern District
of Iowa, to 37 months of incarceration, to be followed by 3                On March 6, 2008, in the U.S. District Court for the Middle
years of supervised release, and was ordered to pay $539,130             District of Florida, Orlando Division, a former bank customer
in restitution to the victim banks. The defendant had                    from Windermere, Florida, pleaded guilty to a superseding
pleaded guilty to two counts of bank embezzlement and                    information charging him with one count of conspiracy to
three counts of money laundering in July 2007.                           commit securities fraud, one count of conspiracy to commit
                                                                         bank fraud, one count of money laundering, and one count
  According to the information, the defendant allegedly                  of bankruptcy fraud. The defendant has been incarcerated
made 109 internal transactions causing money to be                       since his arrest in June 2007 and is awaiting sentencing
transferred to his and/or his girlfriend’s personal accounts.            scheduled for May 2008.
The defendant’s activities caused approximately $569,115 in
losses to the bank.                                                       The defendant admitted that beginning in 1989, he and
                                                                         other co-conspirators devised a scheme to defraud investors

18 Office of Inspector General – Semiannual Report to the Congress
by offering stock investments in Transcontinental Airlines                After a 3-day trial in October 2007, the defendant was found
Travel Services. The defendants began offering investors the              guilty of 28 felony counts of fraud and conspiracy relating to
opportunity to invest in an Employee Investment Savings                   the failure of FNBB.
Account program under the guise of Transcontinental
                                                                            By way of background, FNBB was declared insolvent by the
Airlines. The defendants falsely claimed to investors that
                                                                          Office of the Comptroller of the Currency, and the FDIC was
their investments in the Employee Investment Savings
                                                                          appointed receiver for the failed institution on May 9, 2003.
Account program were insured by the FDIC up to $100,000
                                                                          The former president of FNBB, in collusion with the
and further insured up to $1,000,000 by Lloyd’s of London
                                                                          defendant and other bank customers, provided false
and AIG Insurance. The defendants also provided false
                                                                          information to the Board of Directors, issued unauthorized
financial statements prepared by a fictitious accounting
                                                                          loans in excess of the bank’s legal lending limits, solicited
firm misrepresenting the financial status of Transcontinental
                                                                          and deposited over $17 million of worthless checks in order
Airlines and Transcontinental Airlines Travel Services. In
                                                                          to conceal large overdraft accounts and delinquent loans,
total, the defendants received over $200 million from
                                                                          and filed false call reports and altered bank records in order
at least 1,300 investors as a result of the “Ponzi” scheme
                                                                          to mislead federal bank regulators.
whereby money from later investors would be paid to earlier
investors.                                                                  As previously reported in July 2006, the former president
                                                                          of FNBB was sentenced to 9 years in prison and ordered
  The defendant admitted that beginning in 2001, he
                                                                          to pay $13.4 million in restitution to the FDIC. He earlier
and other co-conspirators devised a scheme to defraud a
                                                                          pleaded guilty to one count of bank fraud, admitting that
number of FDIC-insured institutions of over $100 million
                                                                          he devised a scheme to defraud FNBB of his honest services,
by applying for and obtaining loans using false financial
                                                                          which caused the bank to fail.
statements and tax returns prepared by two different
fictitious accounting firms. The defendants pledged                         Criminal charges are pending against another bank
worthless stock to a number of the loans as security and                  customer who allegedly received over $6.13 million in
submitted a number of documents signed by an individual                   fraudulently obtained loans from FNBB and thereafter
who had been dead for several years. Similar to the                       defaulted on the loans, causing a loss to FNBB of over
investment scheme, the defendant and others defrauded                     $3.77 million.
FDIC-insured institutions by executing a “Ponzi” scheme in                  Joint investigation by the FDIC OIG, the FBI, IRS Criminal
which money borrowed from the institutions would be paid                  Investigation Division, and the U.S. Department of Agriculture OIG,
to other FDIC-insured institutions for earlier loans.                     based on a referral from DRR; prosecuted by the U.S. Attorney’s Office
                                                                          for the Western District of Wisconsin.
  The defendant also admitted to engaging in a money
laundering transaction in November 2006 when he wired
$500,000 from a bank account in Florida to a bank account                 Two Bank Customers Plead Guilty to Bank Fraud
located in the Netherlands. He also engaged in a bankruptcy                 On March 11, 2008, two customers of the now-defunct
fraud transaction in March 2007 when he presented a                       First National Bank of Northern Kentucky pleaded guilty in
fraudulent claim in the amount of approximately $5.2                      the U.S. District Court for the Eastern District of Kentucky
million.                                                                  to one count of bank fraud. The Bank of Kentucky, an
 Joint investigation by the FDIC OIG; FBI; IRS Criminal Investigation     FDIC-regulated institution, purchased the Bank of Northern
Division; and State of Florida, Office of Financial Regulation; based     Kentucky in 2007.
on a referral from the DSC Kansas City Region; prosecuted by the U.S.
Attorney’s Office for the Middle District of Florida, Orlando Division.     The defendants admitted to conspiring with the former
                                                                          bank president by making false statements on loan
                                                                          applications and arranging loans to be made in the names of
Former Customer Sentenced for Bank Fraud in Failure of
                                                                          various family members, supposedly for legitimate business
First National Bank of Blanchardville
                                                                          purposes. The defendants reportedly needed funding to
  On February 20, 2008, in the U.S. District Court for the                develop and market a number of inventions. The defendants
Western District of Wisconsin, a former bank customer of the              admitted that they conspired in order to evade bank lending
First National Bank of Blanchardville (FNBB), Blanchardville,             limits and avoid federal lending regulations. The funds were
Wisconsin, was sentenced to 140 months of incarceration,                  then diverted for the defendants’ personal use. They spent
to be followed by 5 years of supervised release, and ordered              more than $2.5 million on personal items out of about $4.5
to pay restitution to the FDIC in the amount of $6,429,670.               million lent to them from March 2000 through July 2002.

                                                                            Office of Inspector General – Semiannual Report to the Congress 19
Two other defendants have entered guilty pleas for their
part in the conspiracy, and charges remain pending against
two additional defendants.                                                  A Strong Partnership
                                                                            The OIG has partnered with various U.S. Attorneys’
  Joint investigation by the FDIC OIG and the FBI, based on a referral
from DRR; prosecuted by the U.S. Attorney’s Office for the Eastern          Offices throughout the country in bringing to
District of Kentucky.                                                       justice individuals who have defrauded the FDIC or
                                                                            financial institutions within the jurisdiction of the
Businessman Sentenced for Securities Fraud                                  FDIC, or criminally impeded the FDIC’s examination
  On January 4, 2008, an Indiana businessman was                            and resolution processes. The alliances with the
sentenced in the U.S. District Court for the District of New                U.S. Attorneys’ Offices have yielded positive
Jersey to 20 months of incarceration, to be followed by                     results during this reporting period. Our strong
2 years of supervised release. Additionally, as part of his                 partnership has evolved from years of trust and
sentence, the defendant agreed to forfeit $2,850,081 to the                 hard work in pursuing offenders through parallel
government in accordance with his plea agreement. The                       criminal and civil remedies resulting in major
defendant previously pleaded guilty in September 2007                       successes, with harsh sanctions for the offenders.
to one count of conspiracy to commit securities fraud in                    Our collective efforts have served as a deterrent to
connection with initial public offerings involving 23 mutual                others contemplating criminal activity and helped
banks in New Jersey, Connecticut, and across the country. A                 maintain the public’s confidence in the nation’s
mutual bank is a bank owned by depositors. The depositors                   financial system.
are entitled to have the first opportunity to buy shares in the             For the current reporting period, we are especially
bank when it converts to a publicly traded company.                         appreciative of the efforts of the Assistant U.S.
 Investigation disclosed that the defendant organized a                     Attorneys in the following offices: Northern District
complex scheme to circumvent applicable federal and state                   of Texas, Central District of Illinois, District of South
banking regulations that require mutual banks to apportion                  Carolina, Eastern District of Kentucky, District of
shares issued in initial public offerings to depositors, restrict           Nebraska, Southern District of Iowa, Southern
the maximum number of shares offered to such depositors,                    District of Illinois, Eastern District of Oklahoma,
and prevent depositors from transferring their shares to                    Northern District of Illinois, Middle District of
other depositors. By secretly and fraudulently amassing                     Florida, District of New Jersey—Securities and
shares to which he was not entitled and selling them, the                   Health Care Fraud Unit, and the Southern District
defendant and his co-conspirators defrauded eligible                        of Florida. The OIG also worked closely with the
depositors and the banks of more than $2.8 million.                         Antitrust Division of the U.S. Department of Justice.
  He admitted that beginning in 1994 and continuing
to about February 13, 2007, he implemented a scheme
to defraud various mutual savings banks, including the
FDIC-insured and regulated Provident Bank, headquartered                  The defendant further admitted that he directed at least
in Jersey City, N.J. The defendant admitted that he directed             two others to sell the shares on the open market and wire the
at least two others to open depository accounts at Provident             proceeds to him.
and other banks he thought were likely to offer shares in                 Joint investigation by the FDIC OIG, IRS Criminal Investigation Division,
an initial public offering. When Provident announced it                  U.S. Postal Inspection Service, and the FBI ; prosecuted by the U.S. Attorney’s
was offering shares to eligible depositors, the defendant                Office for the District of New Jersey - Securities and Health Care Fraud Unit.
directed others to complete stock purchase order forms that
falsely represented that they were purchasing shares for
their own accounts, when, in reality, they were purchasing
the shares with the defendant’s money, in part, for the
defendant’s benefit.




20 Office of Inspector General – Semiannual Report to the Congress
Strategic Goal 2:
The OIG Will Help the FDIC
Maintain the Viability of the
Insurance Fund

         ederal deposit insurance remains a fundamental part

 F       of the FDIC’s commitment to maintain stability and
         public confidence in the nation’s financial system. A
priority for the FDIC is to ensure that the Deposit Insurance
Fund (DIF), at $52.4 billion as of March 31, 2008, remains
viable to protect depositors in the event of an institution’s
failure. To maintain sufficient DIF balances, the FDIC collects
risk-based insurance premiums from insured institutions and
invests deposit insurance funds.
  The FDIC, in cooperation with the other primary federal
regulators, proactively identifies and evaluates the risk and
financial condition of every insured depository institution.
The FDIC also identifies broader economic and financial
risk factors that affect all insured institutions. The FDIC is
committed to providing accurate and timely bank data
related to the financial condition of the banking industry.
Industry-wide trends and risks are communicated to the
financial industry, its supervisors, and policymakers through
a variety of regularly produced publications and ad hoc
reports. Risk-management activities include approving the
entry of new institutions into the deposit insurance system,
off-site risk analysis, assessment of risk-based premiums, and
special insurance examinations and enforcement actions. In
light of increasing globalization and the interdependence
of financial and economic systems, the FDIC also supports
the development and maintenance of effective deposit
insurance and banking systems world-wide.
  Primary responsibility for identifying and managing risks
to the Deposit Insurance Fund lies with the FDIC’s Division
of Insurance and Research, DSC, and DRR. To help integrate
the risk management process, the FDIC established the
National Risk Committee (NRC), a cross-divisional body.
Also, a Risk Analysis Center monitors emerging risks and
recommends responses to the NRC. In addition, a Financial
Risk Committee focuses on how risks impact the Deposit
Insurance Fund and financial reporting.
  Large banks can pose unique risks to the Deposit
Insurance Fund. Over recent years, the consolidation of the
banking industry has resulted in fewer and fewer financial
institutions controlling an ever expanding percentage of
the nation’s financial assets. As of September 30, 2007, the
10 largest FDIC-insured institutions controlled almost 46
percent of total assets of all institutions. The FDIC is the
primary federal regulator for none of these large financial


  Office of Inspector General – Semiannual Report to the Congress 21
institutions but is responsible for insuring their deposits          to ensure that the FDIC: (1) receives subsidiary notices
and for resolution in the event one or more of these                 from savings associations in accordance with the Federal
institutions fail. In recent years, the FDIC has taken a number      Deposit Insurance Act and (2) reviews these notices to
of measures to strengthen its oversight of the risks to the          assess possible risks posed to the Deposit Insurance Fund.
insurance fund posed by the largest institutions, and its key        The OIG’s ongoing or planned audit work in this strategic
programs include the following:                                      goal area includes an audit of the Corporation’s off-site
                                                                     monitoring activities for insurance risk and an audit of
    • Large Insured Depository Institution Program,
                                                                     investment management practices related to the Deposit
    • Dedicated Examiner Program,                                    Insurance Fund. We will report the results of these latter
                                                                     audits in an upcoming semiannual report.
    • Shared National Credit Program, and
    • Off-site monitoring systems.                                   FDIC’s Receipt and Assessment of Savings Association
  The Congress enacted deposit insurance reform in early             Subsidiary Notices
2006 to give the FDIC more discretion in managing the DIF              The Federal Deposit Insurance Act requires notice to be
and allow the Corporation to better price deposit insurance          provided to the FDIC and Office of Thrift Supervision (OTS)
based on risk. In 2006, the Board adopted a number of                30 days before a savings association establishes or acquires a
final rules implementing specific reforms concerning                 subsidiary or when the savings association elects to conduct
the one-time assessment credit, risk-based assessments,              any new activity through a subsidiary under its control.
and the designated reserve ratio, and put in place a                 The FDIC’s Case Manager Procedures Manual establishes
temporary rule for dividends. In 2007, the Corporation               procedures for reviewing savings association subsidiary
made significant changes to its information technology               notices in order to determine whether the new subsidiary or
(IT) systems and business processes in order to prepare              activity of an existing subsidiary raises safety and soundness
invoices and collect assessments in accordance with the              concerns. As of December 31, 2007, approximately 830
new risk-based assessment and credit rules. In September             savings associations supervised by the OTS were subject
2007, the Board adopted an advance notice of proposed                to the subsidiary notice requirements. During the period
rulemaking seeking comment on alternative approaches to              January 1, 2005 to December 31, 2007, the FDIC recorded the
allocate dividends. During 2008, the FDIC expects to publish         receipt of 178 savings association subsidiary notices.
proposed and final dividend rules to replace the temporary
rule, which will sunset at the end of this year. Also in 2008,         Overall, we concluded that the FDIC has an adequate
the Corporation will continue to modify as necessary the             control process for reviewing subsidiary notices recorded as
processes and systems implementing the new rules and to              received. We reviewed a sample of 43 notices (24 percent)
begin evaluating the effectiveness of the new assessment             out of the 178 savings association subsidiary notices
methods and processes. Finally, for both 2007 and 2008, the          the FDIC recorded in its bank-supervision tracking and
Board adopted a designated (target) reserve ratio of 1.25            reporting database for the period January 1, 2005 to
percent, which has resulted in the need to set risk-based            December 31, 2007. We found that the FDIC maintained
assessment rates above the base rate schedule in order to            copies of the notices from the savings associations and had
gradually raise the reserve ratio to the target.                     reviewed the notices for possible safety and soundness
                                                                     risks in accordance with its operating procedures. These
  To help the FDIC maintain the viability of the deposit             reviews included obtaining an understanding of the risks
insurance fund, the OIG’s 2008 performance goals are as              of the proposed subsidiary activity, analyzing the savings
follows:                                                             association’s financial condition, and obtaining the views
    • Evaluate corporate programs to identify and manage             of OTS personnel regarding the proposal in the notice.
      risks in the banking industry that can cause losses to         Finally, the FDIC sent letters of non-objection to the savings
      the fund.                                                      associations notifying them of the results of the FDIC’s
                                                                     reviews. The FDIC did not identify a concern regarding risk
    • Evaluate selected aspects of implementation of deposit         to the Deposit Insurance Fund in any of the reviews.
      insurance reform.
                                                                      Our report did not contain recommendations; rather, it
                                                                     provided information for the FDIC’s consideration in its
OIG Work in Support of Goal 2                                        ongoing management of this program. DSC commented
  During the reporting period, we issued the results of              that it is committed to ensuring that the FDIC receives
an audit conducted at the request of staff from the U.S.             subsidiary notices from savings associations in accordance
Senate Committee on Banking, Housing and Urban Affairs,              with the Federal Deposit Insurance Act and that notices
as described below. The objectives of the audit were                 are appropriately assessed for possible risks posed to the
to determine whether adequate controls are in place                  Deposit Insurance Fund.

22 Office of Inspector General – Semiannual Report to the Congress
Strategic Goal 3:
The OIG Will Assist the FDIC
to Protect Consumer Rights
and Ensure Customer Data
Security and Privacy
          onsumer protection laws are important safety

 C        nets for Americans. The U.S. Congress has long
          advocated particular protections for consumers in
relationships with banks. For example:
   • The Community Reinvestment Act encourages
     federally insured banks to meet the credit needs of
     their entire community.
   • The Equal Credit Opportunity Act prohibits creditor
     practices that discriminate based on race, color,
     religion, national origin, sex, marital status, or age.
   • The Home Mortgage Disclosure Act was enacted to
     provide information to the public and federal
     regulators regarding how depository institutions are
     fulfilling their obligations towards community housing
     needs.
   • The Fair Housing Act prohibits discrimination based
     on race, color, religion, national origin, sex, familial
     status, and handicap in residential real-estate-related
     transactions.
   • The Gramm-Leach Bliley Act eliminated barriers
     preventing the affiliations of banks with securities
     firms and insurance companies and mandates new
     privacy rules.
   • The Truth in Lending Act requires meaningful
     disclosure of credit and leasing terms.
   • The Fair and Accurate Credit Transaction Act further
     strengthened the country’s national credit reporting
     system and assists financial institutions and consumers
     in the fight against identity theft.
  The FDIC serves a number of key roles in the financial
system and among the most important is the FDIC’s work
in ensuring that banks serve their communities and treat
consumers fairly. The FDIC carries out its role by providing
consumers with access to information about their rights
and disclosures that are required by federal laws and
regulations and examining the banks where the FDIC is
the primary federal regulator to determine the institutions’
compliance with laws and regulations governing consumer
protection, fair lending, and community investment.
During 2007, the Corporation conducted 1,113 Community
Reinvestment Act/Compliance examinations. As a means of
remaining responsive to consumers, the FDIC’s Consumer

  Office of Inspector General – Semiannual Report to the Congress 23
Response Center investigates consumer complaints about               in fraud schemes that target our financial institutions or
FDIC-supervised institutions and responds to consumer                that prey on the banking public. OIG investigations have
inquiries about consumer laws and regulations and banking            identified multiple schemes that defraud depositors.
practices.                                                           Common schemes range from identity fraud to Internet
                                                                     scams such as “phishing” and “pharming.”
  As the FDIC Chairman has pointed out in a number of
Congressional testimonies and in other public speaking                 The misuse of the FDIC’s name or logo has also been
engagements, recent events in the credit and mortgage                identified as a scheme to defraud depositors. Such misrepre-
markets present regulators, policymakers, and the financial          sentations have led depositors to invest on the strength of
services industry with serious challenges. The Chairman              FDIC insurance while misleading them as to the true nature
is committed to working with the Congress and others                 of the investment products being offered. These depositors,
to ensure that the banking system remains sound and                  who are often elderly and dependent on insured savings,
that the broader financial system is positioned to meet              have lost millions of dollars in the schemes. Further, abuses
the credit needs of the economy, especially the needs of             of this nature may erode public confidence in federal
creditworthy households that may experience distress.                deposit insurance.
Another important FDIC initiative and a priority for the FDIC
                                                                       Investigative work related to such fraudulent schemes is
Chairman is promoting expanded opportunities for the
                                                                     ongoing and will continue. With the help of sophisticated
underserved banking population in the United States to
                                                                     technology, the OIG continues to work with FDIC divisions
enter and better understand the financial mainstream.
                                                                     and other federal agencies to help with the detection of
   On July 10, 2007, the federal bank, thrift, and credit union      new fraud patterns and combat existing fraud. Coordinating
regulatory agencies issued the Statement on Subprime                 closely with the Corporation’s DRR and the various U.S.
Mortgage Lending to address issues relating to certain               Attorneys’ Offices, the OIG will help to sustain public
adjustable-rate mortgage products that can result in                 confidence in federal deposit insurance and goodwill within
payment shock. The statement describes prudent safety                financial institutions.
and soundness and consumer protection standards that
                                                                      To assist the FDIC to protect consumer rights and ensure
institutions should follow to ensure borrowers obtain
                                                                     customer data security and privacy, the OIG’s 2008
loans they can afford to repay. The agencies also published
                                                                     performance goals are as follows:
illustrations of consumer information designed to help
institutions implement the consumer protection portion                  • Contribute to the effectiveness of the Corporation’s
of the Interagency Guidance on Nontraditional Mortgage                    efforts to ensure compliance with consumer
Product Risks. The illustrations should help consumers                    protections at FDIC-supervised institutions.
better understand nontraditional mortgage products and
                                                                        • Conduct investigations of fraudulent representations
associated payment options.
                                                                          of FDIC affiliation or insurance that negatively impact
 Consumers today are also concerned about data                            public confidence in the banking system.
security and financial privacy. Banks are increasingly using
third-party servicers to provide support for core information        OIG Work in Support of Goal 3
and transaction processing functions. Of note, the increasing          We completed an audit of DSC’s examination procedures
globalization and cost saving benefits of the financial              related to protecting sensitive customer and consumer
services industry are leading many banks to make greater             information at multi-regional data processing servicers
use of foreign-based service providers. Although generally           during the reporting period. At the end of the reporting
permissible, this outsourcing practice raises certain risks.         period, we also had several assignments ongoing or planned
The obligations of a financial institution to protect the            in support of this goal, including an audit of consumer
privacy and security of information about its customers              credit underwriting practices in community banks and an
under applicable U.S. laws and regulations remain in full            evaluation of the FDIC’s Consumer Response Center.
effect when the institution transfers the information to
                                                                       Investigative work related to protection of personal
either a domestic or foreign-based service provider.
                                                                     information and misrepresentation of deposit insurance
  Every year fraud schemes rob depositors and financial              also supported this strategic goal area during the reporting
institutions of millions of dollars. The OIG’s Office of             period, as described below.
Investigations can identify, target, disrupt, and dismantle
criminal organizations and individual operations engaged

24 Office of Inspector General – Semiannual Report to the Congress
Examination Procedures for Assessing Selected Controls            We recommended that the Director, DSC: (1) provide
Related to the Protection of Customer and Consumer              conclusions on the risks for key security control areas in
Information at Multi-regional Data Processing Servicers         FDIC examination documentation for examinations of TSPs
(MDPS)                                                          in the MDPS program in order to provide greater assurance
                                                                that examination procedures performed are commensurate
  FDIC-insured financial institutions are increasingly
                                                                with identified risks and (2) conduct periodic quality
outsourcing their critical information technology services
                                                                assurance reviews of examination documentation prepared
to Technology Service Providers (TSP). Frequently,
                                                                by FDIC examiners under the MDPS program to achieve
these outsourcing arrangements involve the collection,
                                                                greater assurance that MDPS examination documentation
processing, and storage of customer and consumer
                                                                contains risk determinations for key security control areas,
information on behalf of financial institutions. The Bank
                                                                procedures performed are commensurate with identified
Service Company Act provides federal bank regulators
                                                                risk, and examination processes are consistently applied
with examination access to TSPs. TSPs that process
                                                                across FDIC regions.
mission-critical applications for a large number of financial
institutions with multiple regulators or geographically           FDIC management agreed with both recommenda-
dispersed data centers are subject to interagency               tions, noting that it had begun quality assurance reviews
examination under the Federal Financial Institutions            of documentation prepared by FDIC examiners for
Examination Council’s (FFIEC) MDPS program and related          examinations of TSPs in the MDPS program where the
examination guidance.                                           FDIC is the Agency-in-Charge. Further, the FDIC agreed
                                                                to emphasize the importance of documenting adequate
  Federal regulators published interagency guidelines that
                                                                conclusions for key security control areas.
established information security standards for financial
institution use in developing and implementing safeguards
to protect customer and consumer information. Those             Office of Investigations Works to Curtail Misrepresentation
guidelines implement statutory requirements for financial       of FDIC Insurance or Affiliation and Identity Theft Schemes
institutions intended to protect such information and to          As illustrated in the example below, unscrupulous
deter identity theft. Our audit focused on three selected       individuals sometimes attempt to misuse the FDIC’s name,
security control areas contained in the guidelines: the         logo, abbreviation, or other indicators to suggest that
oversight of TSP third-party service providers, incident        deposits or other products are fully insured. Such misrepre-
response programs, and the disposal of information.             sentations induce the targets of schemes to trust in the
  We assessed the FDIC’s implementation of FFIEC and FDIC       strength of FDIC insurance while misleading them as to the
examination guidance for the selected controls related          true nature of the insurance investments being offered.
to the protection of customer and consumer information          Abuses of this nature harm consumers and can also erode
at TSPs in the MDPS program. Of the 16 TSPs in the MDPS         public confidence in federal deposit insurance. Our Office
program, we sampled 3 of the 8 TSPs for which the FDIC          of Investigations works to counteract these abuses and also
served as the Agency-in-Charge for the most recent              partners with others to pursue cases of this type.
examination.                                                      Identity theft also continues to become more
  We determined that the FDIC has taken a number                sophisticated, and the number of victims is growing.
of proactive steps in its oversight of TSPs in the MDPS         Identity theft includes using the Internet for crimes such
program. However, the risk assessments for the three            as “phishing” emails and “pharming” Web sites that
TSPs we reviewed generally did not address the three            attempt to trick people into divulging their private financial
security control areas (oversight of TSP third-party service    information. Schemers pretend to be legitimate businesses
providers, incident response programs, and the disposal         or government entities with a need for the information
of information) covered by our audit, and examination           that is requested. The OIG’s Electronic Crimes Unit (ECU)
documentation we reviewed generally did not contain             responds to such phishing and pharming scams involving
conclusions on security risks in these control areas. As        the FDIC and the OIG, as described further on the next page.
a result, we were unable to determine whether related
examination procedures performed at the three TSPs
reviewed were commensurate with the risk of unauthorized
access to customer and consumer information.


                                                                  Office of Inspector General – Semiannual Report to the Congress 25
Two Securities Sales Representatives Plead Guilty in Fraud                    originated and will continue to work with foreign law
Scheme                                                                        enforcement in investigating these fraudulent schemes that
                                                                              falsely use the FDIC name.
  On December 4, 2007, in the Northern District of Texas,
a former securities sales representative of Capital 1st                        Additionally, the ECU investigated two new instances
Financial who worked at its offices in Ft. Myers and Sarasota,                of phishing websites Web sites involving the FDIC. In
Florida, pleaded guilty to an information charging him with                   both cases, the ECU, working with an FDIC contractor,
one count of conspiracy to commit securities fraud. The                       Brandimensions, was able to have the Web sites deactivated.
defendant became the second person to plead guilty in this
                                                                                The ECU also provided forensic computer assistance on
securities fraud scheme.
                                                                              13 existing and 8 new FDIC OIG cases during the reporting
  By way of background, the first defendant pleading guilty                   period. The cases involved bank fraud at open and closed
to one count of securities fraud operated out of Florida                      financial institutions and employee misconduct cases
and misled elderly investors into believing their funds were                  involving the improper use of FDIC computers. The forensic
being invested in FDIC-insured certificates of deposit that                   computer assistance involved the analysis of electronic
were pooled together and placed in a limited partnership                      evidence gathered from computers and other electronic
called Secured Capital Trust, LTD. The funds collected from                   media. The ECU typically searches the electronic evidence
investors were actually used to buy shares of Interfinancial                  for key-words or phrases; searches for documents, emails,
Holdings (IFCH), a thinly-traded penny stock. The defendant                   and other artifacts; and recreates specialized software
did not disclose to investors that his associates owned                       applications such as accounting software.
millions of shares of IFCH stock or that investor funds were
being used to buy IFCH stock in an attempt to manipulate
and increase the share price of the stock.
 The second defendant, who resides in Dallas, Texas, made
the majority of his sales to either another co-conspirator,
or other individuals and entities acting in concert with
his co-conspirator. The second defendant knew that IFCH
was merely a shell corporation with minimal assets, but
he actively participated in the conspiracy by buying and
selling IFCH stock in multiple brokerage accounts. The
second defendant derived approximately $1,628,482 in
proceeds from the fraudulent sales of IFCH stock during the
conspiracy.
  The State of Florida, Office of Financial Regulations, filed a
temporary injunction, appointed a receiver, and shut down
the operations in Florida. The IFCH stock price subsequently
fell, and the investors lost the majority of their funds.
 Joint investigation by the FDIC OIG and the FBI; prosecuted by the
U.S. Attorney’s Office for the Northern District of Texas, Dallas Division.


Electronic Crimes Unit Success
  During the reporting period, the ECU opened three new
cases related to fraudulent emails involving the FDIC. The
emails, purportedly from the FDIC, attempted to entice
victims to pay a deposit to receive an insurance settlement.
While investigating these cases, the ECU was able to have 10
fraudulent email accounts deactivated. In these cases, the
ECU traced the schemes to locations outside of the United
States. The ECU has made contact with law enforcement
in the foreign country where the emails appear to have

26 Office of Inspector General – Semiannual Report to the Congress
Strategic Goal 4:
The OIG Will Help Ensure
that the FDIC is Ready
to Resolve Failed Banks
and Effectively Manages
Receiverships
          he FDIC protects depositors of insured banks

 T        and savings associations. In the FDIC’s history, no
          depositor has experienced a loss on the insured
amount of his or her deposit in an FDIC-insured institution
due to a failure. One of the FDIC’s most important roles
is acting as the receiver or liquidating agent for failed
FDIC-insured institutions. The success of the FDIC’s efforts
in resolving troubled institutions has a direct impact on the
banking industry and on the taxpayers.
  DRR exists to plan and efficiently handle the resolutions
of failing FDIC-insured institutions and to provide prompt,
responsive, and efficient administration of failing and failed
financial institutions in order to maintain confidence and
stability in our financial system.
    • The resolution process involves valuing a failing
      federally insured depository institution, marketing it,
      soliciting and accepting bids for the sale of the
      institution, considering the least costly resolution
      method, determining which bid to accept, and working
      with the acquiring institution through the closing
      process.
    • The receivership process involves performing the
      closing function at the failed bank; liquidating any
      remaining assets; and distributing any proceeds to the
      FDIC, the bank customers, general creditors, and those
      with approved claims.
  The FDIC’s resolution and receivership activities pose
tremendous challenges. As indicated by the trends in
mergers and acquisitions, banks are becoming more
complex, and the industry is consolidating into larger
organizations. As a result, the FDIC could potentially have to
handle a failing institution with a significantly larger number
of insured deposits than it has had to deal with in the past.
  Although there have been far fewer failures in recent
years, during 2007, three FDIC-insured institutions failed.
DRR must be ready to resolve troubled institutions and is, in
fact, continuing to focus on its ability to resolve institutions
of any size. According to FDIC analysis, the failures of the
1980s and early 1990s were concentrated in the energy,
agriculture, and commercial real estate sectors. In contrast,
more recent bank failures are largely attributable to fraud,
mismanagement, improper accounting and reporting

  Office of Inspector General – Semiannual Report to the Congress 27
practicies, and losses related to investments in subprime            OIG’s ongoing or planned work in support of this strategic
lending.                                                             goal area included an audit of internal control in the FDIC’s
                                                                     receivership accounting process and an audit of protection
  Through the development of new resolution strategies
                                                                     of resolution and receivership data managed or maintained
within the various DRR business lines, the FDIC must
                                                                     by FDIC contractors.
set far-reaching plans for the future to keep pace with a
changing industry. DRR has developed models to train FDIC
staff and prepare for differing circumstances. One major             The FDIC’s Evaluation of Deposit Insurance Claims and
corporate initiative is the Corporation’s Strategic Readiness        Payments System Solutions
Project, which the OIG has monitored since project                     The FDIC’s Claims Administration System (CAS) is a
inception, as discussed below.                                       development effort to automate the handling of deposit
  While OIG audits and evaluations address various aspects           insurance determination functions and the processing
of resolution and receivership activities, OIG investigations        and payment of claims associated with failed financial
benefit the Corporation in other ways. That is, in the case          institutions. DRR is the project sponsor for CAS. We
of bank closings where fraud is suspected, our Office of             performed a review at DRR’s request to determine (1) the
Investigations (OI) is prepared to send case agents and              extent to which two different approaches to developing the
computer forensic special agents from the ECU to the                 claims system (one developed in-house and the other by a
institution. ECU agents use special investigative tools to           contractor) met the FDIC’s CAS criteria and (2) whether the
provide computer forensic support to OI’s investigations by          FDIC followed existing policies and procedures in evaluating
obtaining, preserving, and later examining evidence from             and selecting a CAS solution.
computers at the bank.                                                We noted several issues associated with the project
  The OIG also coordinates closely with DRR on concealment           warranting management attention. The FDIC promptly
of assets cases. In many instances, the FDIC debtors do              took several actions that were generally responsive to the
not have the means to pay fines or restitution owed to the           conclusions and suggestions contained in our report.
Corporation. However, some individuals do have the means
to pay but hide their assets and/or lie about their ability to       The OIG Continues to Monitor the FDIC’s Strategic
pay. OI works closely with both DRR and the Legal Division           Readiness Project
in aggressively pursing criminal investigations of these
                                                                       The failure of a large bank is not only one of the greatest
individuals.
                                                                     risks to the Deposit Insurance Fund but it is also an event
 To help ensure the FDIC is ready to resolve failed banks            that could shake the public’s confidence in the nation’s
and effectively manages receiverships, the OIG’s 2008                financial system. Recognizing its role in resolving failed
performance goals are as follows:                                    institutions and maintaining public confidence, the FDIC
                                                                     has continued its Strategic Readiness Project to test and
    • Evaluate the FDIC’s plans and systems for managing
                                                                     evaluate its processes for handling the possibility of a large
      bank resolutions.
                                                                     bank failure. The purpose of the project, which began in
    • Investigate crimes involved in or contributing to              January 2007, was to test the command and control plan
      the failure of financial institutions or that lessen or        associated with a large bank failure, enhance the FDIC’s
      otherwise affect recoveries by the Deposit Insurance           ability to determine an effective resolution strategy, advance
      Fund, involving restitution or otherwise.                      knowledge of the process, and identify lessons learned. The
                                                                     FDIC’s Corporate University is directing this project and has
OIG Work in Support of Goal 4                                        used focused exercises and high-level simulations to test
  As discussed in more detail below, during the reporting            and evaluate its processes. During the reporting period, the
period our Office of Evaluations examined the Corporation’s          OIG continued to monitor this project.
ongoing efforts to develop and implement a new insurance
                                                                      The OIG needs to be ready for any large failure and
determination system by 2009. This system is being
                                                                     determine whether fraud is a contributing factor. We also
designed to meet the current and future deposit insurance
                                                                     need to be prepared to help review the circumstances that
determination needs of the Corporation. We also continued
                                                                     cause a large bank failure and make recommendations, if
monitoring corporate efforts to prepare for the possibility of
                                                                     appropriate, to strengthen the regulatory process.
a large bank failure. At the end of the reporting period, the


28 Office of Inspector General – Semiannual Report to the Congress
FDIC Debtor Ordered to Pay Remaining Restitution
Payment of $428,591
  The OIG continues to conduct concealment of assets
investigations to protect the FDIC’s interests as receiver
of a failed institution. As referenced earlier, typically, in
such cases, the OIG pursues instances where an individual
commits a fraud to avoid paying the FDIC civil settlements,
court-ordered restitution, and other payments as the
institution receiver.
  Following the initiation of an OIG investigation and the
issuance of grand jury subpoenas for records, an FDIC
debtor who was previously ordered to pay restitution in
the amount of $841,200 to the FDIC as a result of a 1994
conviction submitted a financial statement in February
2005 to the Financial Litigation Unit of the United States
Attorney’s Office, Miami, FL. The financial statement
indicated that the debtor did not have the ability to make his
restitution payments. Our investigation disclosed that the
debtor failed to list all his income and assets on the financial
statement. The investigation resulted in the debtor pleading
guilty to an information filed in November 2007, charging
him with one count of false statements. He was sentenced
to 5 years of supervised release and was ordered to pay
restitution in the amount of $428,591, the amount remaining
on his original restitution order.
 This case was prosecuted by the U.S. Attorney’s Office for the
Southern District of Florida.




                                                                   Office of Inspector General – Semiannual Report to the Congress 29
Stategic Goal 5:
The OIG Will Promote Sound
Governance and Effective
Stewardship and Security
of Human, Financial, IT, and
Physical Resources
        he FDIC must effectively manage and utilize a

 T      number of critical strategic resources in order to
        carry out its mission successfully, particularly its
human, financial, IT, and physical resources.
  Human Resources: In the aftermath of corporate
downsizing, and in light of a growing number of employees
with retirement eligibility, the FDIC was faced with
significant human capital challenges. The FDIC established a
human capital framework and strategy to guide its evolution
toward a more flexible permanent workforce that will be
capable of responding rapidly to significant changes in
the financial services industry or unexpected changes in
workload or priorities. The implementation of the Corporate
Employee Program, the Succession Management Program,
and the Leadership Development Program are initiatives
to that end. To cross-train employees and build a more
diverse and ready workforce, the FDIC also created the
Professional Learning Account program in 2007 to allocate
time and money for each qualified employee to manage, in
partnership with the employee’s supervisor, the employee’s
learning goals.
  In the interest of making the FDIC an employer of choice,
increasing FDIC employee engagement and empowerment,
enhancing trust between FDIC managers and employees,
and refining the Corporation’s pay-for-performance system,
the Chairman of the FDIC spearheaded a comprehensive
employee survey that was carried out by an independent
consulting group during 2007. The Chairman is committed
to effecting necessary changes based on the results of the
survey.
  In an age of identity theft risks, another human capital
management responsibility at the FDIC is to maintain
effective controls to protect personal employee-related
information that the Corporation possesses. The
appointment of a chief privacy officer and implementation
of a privacy program have been positive steps in addressing
that challenge. Further, the FDIC has established a
process for conducting privacy impact assessments of its
information systems containing personally identifiable
information that is consistent with relevant privacy-related
policy, guidance, and standards.
 Supplementing the FDIC workforce are contractors

30 Office of Inspector General – Semiannual Report to the Congress
providing services for the Corporation. According to the          program by identifying duplicative resources/investments
Corporation’s New Financial Environment data, the FDIC had        and opportunities for internal and external collaboration
$1.52 billion in outstanding contracts as of December 31,         to promote operational improvements and cost-effective
2007, and awarded approximately $379 million in contracts         solutions to business requirements.
during 2007. As a good steward, the FDIC must ensure it
                                                                    Along with the positive benefits that IT offers comes a
receives the goods and services purchased with corporate
                                                                  certain degree of risk. In that regard, information security
funds and have effective contractor oversight controls in
                                                                  has been a long-standing and widely acknowledged
place as well.
                                                                  concern among federal agencies. The Federal Information
  Financial Resources: The Corporation does not receive           Security Management Act requires each agency to develop,
an annual appropriation, except for its OIG, but rather is        document, and implement an agency-wide information
funded by the premiums that banks and thrift institutions         security program to provide adequate security for the
pay for deposit insurance coverage, the sale of assets            information and information systems that support the
recovered from failed banks and thrifts, and from earnings        operations and assets of the agency. Section 522 of the
on investments in U.S. Treasury securities.                       Consolidated Appropriations Act of 2005 has required
                                                                  agencies to establish and implement comprehensive privacy
  The FDIC Board of Directors approves an annual
                                                                  and data protection procedures and have an independent
Corporate Operating Budget to fund the operations of the
                                                                  third-party review performed of their privacy programs and
Corporation. For 2008, the approved budget totals
                                                                  practices. The OIG has performed yearly evaluations of the
$1.14 billion. The operating budget provides resources
                                                                  Corporation’s information security and privacy programs
for the operations of the Corporation’s three major
                                                                  and will do so again in 2008.
programs or business lines—Insurance, Supervision, and
Receivership Management—as well as its major program                Physical Resources: The FDIC employs approximately
support functions (legal, administrative, financial, IT, etc.).   4,500 people. It is headquartered in Washington, D.C., but
Program support costs are allocated to the three business         conducts much of its business in six regional offices and
lines so that the fully loaded costs of each business line are    in field offices throughout the United States. Ensuring the
displayed in the operating budget approved by the Board.          safety and security of the human and physical resources in
                                                                  those offices is a fundamental corporate responsibility that is
  In addition to the Corporate Operating Budget, the
                                                                  directly tied to the Corporation’s successful accomplishment
FDIC has a separate Investment Budget that is composed
                                                                  of its mission. The FDIC needs to be sure that its emergency
of individual project budgets approved by the Board
                                                                  response plans provide for the safety and physical security
of Directors for major investment projects. Budgets for
                                                                  of its personnel and ensure that its business continuity
investment projects are approved on a multi-year basis, and
                                                                  planning and disaster recovery capability keep critical
funds for an approved project may be carried over from
                                                                  business functions operational during any emergency.
year to year until the project is completed. A number of the
Corporation’s more costly IT projects are approved as part of       Corporate Governance and Risk Management: The
the investment budget process.                                    FDIC is managed by a five-person Board of Directors, all of
                                                                  whom are appointed by the President and confirmed by
  Expenditures from the Corporate Operating and
                                                                  the Senate, with no more than three being from the same
Investment Budgets are paid from two funds managed
                                                                  political party. The Board includes the Comptroller of the
by the FDIC—the Deposit Insurance Fund and the FSLIC
                                                                  Currency and the Director of the Office of Thrift Supervision.
Resolution Fund.
                                                                  Given the relatively frequent changes in the Board make-up,
  IT Resources: At the FDIC, the Corporation seeks to             it is essential that strong and sustainable governance and
leverage IT to support its business goals in insurance,           communication processes are in place throughout the FDIC
supervision and consumer protection, and receivership             and that Board members possess and share the information
management, and to improve the operational efficiency             needed at all times to understand existing and emerging
of its business processes. The FDIC needs to continue to          risks and make sound policy and management decisions.
focus on the capital planning and investment processes for
                                                                   Enterprise risk management is a key component
IT and maximize the effectiveness of the Chief Information
                                                                  of governance. The FDIC’s numerous enterprise risk
Officer Council and Project Management Office, both of
                                                                  management activities need to consistently identify,
which play an important role in reviewing the portfolio of
                                                                  analyze, and mitigate operational risks on an integrated,
approved IT projects and other initiatives. The Corporation
                                                                  corporate-wide basis. Additionally, such risks need to
has also worked to enhance its Enterprise Architecture
                                                                  be communicated throughout the Corporation, and the

                                                                    Office of Inspector General – Semiannual Report to the Congress 31
relationship between internal and external risks and related           FDIC introduced a Telework Pilot Program, which became
risk mitigation activities should be understood by all                 permanent in May 2003.
involved.
                                                                         We conducted an evaluation and determined that the
 To promote sound governance and effective stewardship                 FDIC has established a telework program that is consistent
and security of human, financial, IT, and physical resources,          in most respects with applicable federal standards and
the OIG’s 2008 performance goals are as follows:                       guidelines and recognized best practices. We noted,
                                                                       however, that the Corporation’s time and attendance
    • Evaluate corporate efforts to manage human resources
                                                                       reporting system was not configured in a way that would
      and operations efficiently, effectively, and economically.
                                                                       provide the FDIC with sufficiently reliable data to draw
    • Promote integrity in FDIC internal operations.                   valid conclusions regarding the extent of participation in
                                                                       its telework program. We also reported that the FDIC could
    • Promote alignment of IT with the FDIC’s business goals
                                                                       better assess its program by conducting an evaluation of the
      and objectives.
                                                                       program, consistent with corporate policy, and establishing
    • Promote IT security measures that ensure the confiden-           measurable goals. The FDIC also needed to clarify the role
      tiality, integrity, and availability of corporate information.   that telework plays in its business continuity and pandemic
                                                                       event plans and policies, and conduct tests to evaluate the
    • Promote personnel and physical security.
                                                                       viability of telework arrangements under both scenarios.
    • Promote sound corporate governance and effective risk
                                                                         The FDIC received an award in 2006 for its innovative
      management and internal control efforts.
                                                                       use of technology to support employees who teleworked.
OIG Work in Support of Goal 5                                          Further, the Corporation has issued extensive guidance on
                                                                       protecting sensitive information and implemented controls
  The OIG committed a number of audit and evaluation
                                                                       to address Office of Management and Budget (OMB)
resources to work in this strategic goal area during the
                                                                       and General Services Administration (GSA) information
reporting period. We performed evaluations of the FDIC’s
                                                                       security requirements associated with teleworking. Most
telework program, transit subsidy program, and contract
                                                                       notably, the FDIC requires two-factor authentication
rationalization. We also examined a number of IT security-
                                                                       for user identification, and remote network sessions are
related issues, such as IT disaster recovery and corporate
                                                                       encrypted. However, the FDIC needs to complete initiatives
processes for replacing and disposing of laptop computers.
                                                                       that will provide greater assurance that sensitive electronic
We looked at broader issues of IT procurement integrity
                                                                       information—stored on removable media and Personal
and governance as well as a more focused contract audit
                                                                       Digital Assistant devices often used for teleworking—is
of the infrastructure services contract. One of our most
                                                                       safeguarded from unauthorized disclosure. The FDIC could
comprehensive assignments was an evaluation of the
                                                                       also take steps to further protect data from unauthorized
FDIC’s enterprise risk management program. Results of
                                                                       access during telework sessions on non-FDIC computers.
these reviews are discussed below. Additionally, ongoing or
planned work in this area includes evaluations of the FDIC’s             We made nine recommendations to improve the quality
Corporate Employee Program and the energy efficiency                   and reliability of telework participation data; conduct
of FDIC datacenters and IT equipment, and audits of FDIC               an evaluation to determine whether the FDIC’s telework
benefits contracts (e.g., relocation services), general ledger         program is meeting management’s expectations; ensure
accounting, and e-mail security.                                       that teleworkers are prepared and supported during
                                                                       emergency situations and pandemic events; further
                     The FDIC’s Telework Program                       enhance security over data used when teleworking; and
                                                                       improve the efficiency of telework forms. Management
                      Since October 2000, the Congress                 concurred or partially concurred with eight of our nine
                    has continued to express its desire for            recommendations and offered a reasonable explanation for
                    federal agencies to create viable telework         disagreeing with the remaining recommendation.
                    programs through a number of legislative
                    actions. Telework programs allow
                                                                       The FDIC’s Transit Subsidy Program
                    employees with appropriate work projects
                    to work at home or in other approved                 The Federal Employees Clean Air Incentives Act required
work sites if they meet telework program requirements and              federal agencies to implement transit benefit programs
obtain approval from their supervisors. In May 2001, the               for eligible employees. The FDIC implemented its Transit

32 Office of Inspector General – Semiannual Report to the Congress
                           Subsidy Program in April 2000
                                                                Contract Rationalization
                           to encourage employees to
                           use mass transit in an effort to       The FDIC has over $1.5 billion in outstanding contracts.
                           reduce the use of petroleum-         The Acquisition Services Branch awards contracts on behalf
                           based products, air pollution,       of FDIC divisions and offices for a broad array of corporate
                           noise, and traffic congestion in     services, from IT development contracts to contracts to
                           major metropolitan areas when        assist with failed bank resolution and receivership efforts.
commuting from their residence to their permanent duty          Accordingly, it is important that the FDIC make informed
station.                                                        and strategic acquisition decisions when evaluating new
                                                                procurement requests for possible duplication and assessing
  We conducted a review of the program because the U.S.
                                                                existing contracts for continuing need. For the purposes
Government Accountability Office (GAO) and other federal
                                                                of this report, we referred to those decisions as “contract
Inspectors General had reported instances of federal
                                                                rationalization.”
employees abusing transit benefit programs. Our evaluation
objective was to review the FDIC’s efforts to monitor and        We conducted an evaluation to assess whether the FDIC
efficiently administer its transit subsidy program. To do so,   has mechanisms in place to periodically evaluate the
we assessed the extent to which the FDIC had (1) established    continuing need for contracts and determine whether
policies and procedures necessary to ensure that only           there are corporate contracts that can be eliminated. To
qualified employees received the subsidy and that they          accomplish our objective, we selected DRR contracts to
received the correct amount; and (2) implemented controls       verify they (1) did not duplicate the services being provided
and ensured that FDIC employees were complying with             under other corporate contracts and (2) served a continuing
established procedures.                                         business need.
 The FDIC had established policy for the transit subsidy          We reported that the FDIC has informal processes
program that addressed employee eligibility requirements,       in place for evaluating new procurement requests for
program office and employee responsibilities, and               potential duplication and existing contracts for continuing
procedures for employees to follow when participating in        need. Based on our testing of selected DRR contracts,
the program. This policy addressed most of the controls         we determined that these contracts were generally not
suggested by GAO and OMB to ensure that qualified               duplicative of other corporate contracts and addressed
employees receive the correct subsidy amount. However,          a continuing need of the Corporation. We identified
the policy did not include, nor did we identify, sufficient     two recurring system-related issues that may hinder the
operating procedures for the headquarters or Dallas transit     Acquisition Services Branch’s ability to evaluate contracts
subsidy programs.                                               for duplication or continuing need and reported these to
                                                                management.
  The FDIC had also implemented program controls that
helped to ensure that employees complied with procedures.         The FDIC had ongoing actions to address the issues
Our evaluation testing identified no instances of employee      we identified. We also provided management with the
abuse of the transit subsidy program. However, we did see       information it needed to load certain missing documents
several areas where the Division of Administration could        into the official contracting file repository. Accordingly, we
strengthen program controls. Our testing also indicated         did not make recommendations in this report and written
that headquarters employees participating in the transit        comments were not required.
subsidy program could do more to meet their program
responsibilities.                                               IT Disaster Recovery
  We made recommendations to improve controls for both            The OMB has issued policy requiring federal agencies to
the headquarters and Dallas transit subsidy programs            establish and periodically test their ability to recover from
related to local operating procedures, records management,      IT service interruptions. In addition, the National Institute
employee awareness, separation of duties, controls over         of Standards and Technology has developed security
transit passes, and accuracy of participant data. Division      standards and guidelines to assist agencies in restoring
of Administration management concurred with all of              their information systems following a disruption or failure.
our recommendations and planned to have responsive              Further, organizations can consider adopting a number of
corrective actions implemented between January and              industry-accepted practices related to IT disaster recovery.
March 2008.

                                                                  Office of Inspector General – Semiannual Report to the Congress 33
 We conducted an audit and determined that the FDIC                                          We conducted an audit of controls
has established and implemented an IT disaster recovery                                      over the replacement and disposal
capability consistent with federal standards and guidelines                                  process for laptop computers.
and industry-accepted practices.
                                                                                                 We determined that the Corporation
  Among other things, the FDIC has established an alternate                                     had established and implemented
processing site and developed written plans to recover its                                      generally adequate controls over the
general support systems and mission-critical applications                                       computer replacement and disposal
following a disaster. In April 2007, the FDIC’s Division of                                     processes. Specifically, the FDIC
Information Technology (DIT) conducted a test of its IT              had implemented a consistent and complete deployment
disaster recovery capability and successfully recovered its          of laptop computers during 2007 in each of the offices
general support systems and mission-critical applications.           we reviewed. Further, DIT personnel at each location we
DIT issued a report on the results of its IT disaster recovery       visited maintained documentation in accordance with the
testing, including the issues it identified during the testing       DIT Guidelines. All 3,905 laptop computers purchased by
and associated solutions, to improve future recovery                 the FDIC were received and recorded in the FDIC’s laptop
responsiveness and reliability. These accomplishments are            inventory system within the timeframes established by DIT.
positive. However, our audit identified certain areas needing        Finally, as stipulated in the new laptop purchase order, the
enhancements to further ensure that information security             FDIC received a discount for its used laptop computers.
controls are in place in the event of a disaster.
                                                                       We also found that opportunities exist for the FDIC to
  In that regard, we recommended that FDIC management                enhance controls for the continuous replacement and
(1) update the FDIC’s corporate contingency policy; (2) take         disposal process for laptop computers in the certain areas. In
steps to ensure that security patches are installed on disaster      that connection, we recommended that FDIC management
recovery servers in a timely manner; and (3) document and            (1) update its internal policy to reflect the FDIC’s current
test, as appropriate, DIT’s strategy for recovering key security     business environment for managing its laptop computer
services. In general, management concurred with our                  inventory and to define policy for the disposal of hard drives;
recommendations and is taking responsive corrective action.          (2) implement additional measures that mitigate the risk
                                                                     of a computer hard drive being lost during the destruction
  Our report also identified opportunities for DIT to enhance
                                                                     process and subject to unauthorized access; and (3) establish
its IT disaster recovery performance metrics. We discussed
                                                                     procedures to track and record the replacement of laptop
these opportunities with DIT officials during our audit.
                                                                     computers returned to the vendor for replacement or
                                                                     service. Management concurred with our recommendations
FDIC’s Replacement and Disposal Process for Laptop                   and promptly took responsive corrective actions.
Computers
  During 2007, the FDIC purchased 3,905 Lenovo T60                   IT Procurement Integrity and Governance
Thinkpad laptop computers and related hardware for a total
                                                                       During the reporting period, at the request of the
cost of approximately $7.8 million. The new laptops were
                                                                     FDIC Chairman, our Office of Evaluations undertook a
intended to provide FDIC employees with faster system/
                                                                     comprehensive assessment of the integrity of the FDIC’s IT
software performance, extended battery life, increased disk
                                                                     procurement activity, and the FDIC’s governance framework
storage space, and a larger display screen. In addition, the
                                                                     related to the selection, management, and evaluation of IT
new laptops include Pointsec for PC (Pointsec) encryption
                                                                     projects.
software to enhance the security of corporate data. The
FDIC’s DIT was responsible for the 2007 laptop deployment             We reported that, overall, the FDIC has controls and
project.                                                             processes in place in both areas that generally agree with
                                                                     government-wide norms. We provided a briefing of the
  The FDIC has established policies and procedures for
                                                                     evaluation results to the Chairman’s office, and management
managing FDIC-owned laptop computers throughout their
                                                                     concurred with the nine recommendations we made to
life cycle. In addition, in July 2007, DIT issued Guidelines for
                                                                     enhance IT procurement and governance processes, and is
New Laptop Deployment, which provides detailed procedures
                                                                     working to implement them.
for the replacement and disposal of laptops, including
procedures for the disposition of the hard drives from used
laptops in order to protect sensitive data they may contain.

34 Office of Inspector General – Semiannual Report to the Congress
                                                                   As part of the audit, we engaged the Defense Contract
Infrastructure Services Contract
                                                                  Audit Agency (DCAA) to audit selected invoices submitted
 In connection with our overall evaluation of IT governance       by SRA and two of its subcontractors. DCAA found that,
and procurement integrity, we performed an audit to               except for a minor amount of labor and applied indirect
assess (1) the FDIC’s contract oversight management of            costs that did not meet the labor qualifications of the
Systems Research Applications International, Inc. (SRA),          contract, the costs for IT goods and services invoiced
and its subcontractors, including subcontractor selection         under the ISC were allowable, allocable, and reasonable.
and performance; and (2) support for payments made by             The minor questioned costs were forwarded to DIT for
the FDIC for IT goods and services provided by SRA and its        appropriate action through GSA.
subcontractors.
  In June 2004, the FDIC’s Board of Directors approved            Enterprise Risk Management
expenditure authority totaling $357 million to procure              Enterprise Risk Management (ERM) is a process, effected
IT infrastructure services through GSA’s Federal Systems          by an entity’s board of directors, management and other
Integrations and Management (FEDSIM) Center. In                   personnel, applied in strategy setting and across the
September 2004, FEDSIM awarded a task order [the                  enterprise. ERM is designed to identify potential events
Infrastructure Services Contract—(ISC)] to SRA under the          that may affect the entity, and manage risk to be within its
Millennia Government-wide Acquisition Contract program.           risk appetite, to provide reasonable assurance regarding
As a result of the ISC, DIT was able to eliminate 36 individual   the achievement of entity objectives. During the reporting
IT infrastructure contracts.                                      period, we conducted an evaluation to assess: (1) the extent
  FEDSIM acts as the contracting officer with overall             to which the FDIC has implemented an ERM program
responsibility for contract management, while DIT provides        consistent with applicable government-wide guidance, and
critical advice to GSA regarding the performance of SRA and       (2) implementation of the Corporation’s internal circular,
its subcontractors. The Division of Administration provides       FDIC Enterprise Risk Management Program, dated September
personnel security services and advice to help ensure that        25, 2006.
the FDIC’s contracting and security interests are protected.        We reported that the FDIC has a number of internally-
  The FDIC implemented a framework of controls designed           focused committees and groups that help to keep the Board,
to ensure effective contract oversight management of SRA          Chairman, and senior executives informed of management
and its subcontractors. A number of these controls are based      operations and internal risks facing the Corporation and
on government and industry-recommended practices.                 aid them in their decision-making. Taken collectively, these
Additionally, SRA selected subcontractors consistent with         committees and groups as well as their respective reports
the Federal Acquisition Regulation and the terms and              and briefings provide a comprehensive means for managing
conditions of the ISC and Millennia contract. However,            internal risk and establishing transparency. We reported that
we reported that the FDIC can strengthen its oversight            more could be done, however, to (1) institutionalize how
management of SRA in some control areas.                          these entities interrelate and support ERM and (2) ensure
                                                                  the continuity of risk management efforts as changes in
  We recommended increased management attention in                leadership and/or senior management occur.
the control areas of ISC oversight roles and responsibilities,
acquisition policies, award fee determinations, contractor          We evaluated the FDIC’s overall internal ERM efforts against
and subcontractor integrity and fitness, and contractor and       key concepts and principles of the Committee of Sponsoring
subcontractor invoice reviews to strengthen ISC governance        Organizations (COSO) ERM Framework and determined that
and promote transparency and communication throughout             the FDIC’s overall ERM program varies in some respects from
the ISC program. We also recommended that the                     what is recommended by COSO. Although organizations
Corporation better address performance-based acquisitions         have latitude and flexibility in implementing ERM to meet
in the Acquisition Policy Manual, develop performance-            specific needs, we reported that the FDIC may wish to
based contract management training, document periodic             further study the following aspects of its ERM program to
on-site inspections of procurement files, and clarify the         maximize the effectiveness and efficiency of the various risk
Division of Administration’s role regarding ISC procurement       management activities in place throughout the Corporation.
actions. Management agreed to take action on our                     • Defining and communicating the Corporation’s risk
recommendations.                                                       appetite and ensuring that corporate objectives are
                                                                       aligned with that appetite;

                                                                    Office of Inspector General – Semiannual Report to the Congress 35
    • Implementing corporate-wide consistent processes for            The report contained seven recommendations and two
      identifying, assessing, and responding to risks;               suggestions intended to: (1) address the variances between
                                                                     certain current FDIC practices and approaches to ERM
    • Establishing effective channels for the Corporation’s
                                                                     and those advocated by the COSO ERM Framework and
      Office of Enterprise Risk Management (OERM) to
                                                                     applicable FDIC and government-wide guidance and (2)
      communicate risk information up, down, and across
                                                                     add clarity and structure to the ERM program. In response,
      the Corporation; and
                                                                     management agreed to:
    • Monitoring the implementation of the overall ERM
                                                                        • Develop a more comprehensive blueprint to enhance
      program.
                                                                          coordination and to document the various committees
 We also reported that the FDIC could benefit from adding                 and groups that contribute to ERM,
more structure to OERM’s existing internal ERM policy and
                                                                        • Take steps to more clearly define and communicate the
program, by:
                                                                          Corporation’s risk appetite and ensure that corporate
    • Defining the roles of the FDIC Board, Chairman, and                 objectives are aligned, and
      Audit Committee in ERM and reconciling the stated
                                                                        • Clarify the roles of the Chairman, the Board, and the
      role of OERM with actual practice;
                                                                          Audit Committee in relation to the ERM program.
    • Issuing comprehensive procedures and guidance
                                                                       These actions were responsive to one of our suggestions
      to establish consistent processes, tools, techniques,
                                                                     and two of our recommendations. Management disagreed
      and models for identifying, assessing, mitigating, and
                                                                     with the remaining five recommendations and suggestion.
      reporting risks; and
                                                                     Because the Chairman, who serves as the Corporation’s
    • Providing corporate-wide training in ERM.                      audit follow-up official, was involved in the response
                                                                     process, management’s written comments constitute the
  Our report also included a matter for the FDIC’s
                                                                     FDIC’s final decisions, and we consider the recommenda-
consideration. That is, in the interest of furthering effective
                                                                     tions closed.
corporate governance practices, we suggested that the
FDIC examine the relationships between the Corporation’s
internal and external risk management activities to ensure
they are complementary or integrated to the extent they
efficiently and effectively mitigate any current or future risks
to the successful accomplishment of the FDIC mission.




36 Office of Inspector General – Semiannual Report to the Congress
Goal 6:
OIG Internal Processes: Build
and Sustain a High-Quality
Staff, Effective Operations,
OIG Independence, and
Mutually Beneficial Working
Relationships

               hile the OIG’s audit, evaluation, and investigation

 W             work is focused principally on the FDIC’s
               programs and operations, we have an obligation
to hold ourselves to the highest standards of performance
and conduct. We seek to develop and retain a high-quality
staff, effective operations, OIG independence, and mutually
beneficial working relationships with all stakeholders.
  To ensure a high-quality staff, we must continuously invest
in keeping staff knowledge and skills at a level equal to
the work that needs to be done, and we emphasize and
support training and development opportunities for all OIG
staff. We also strive to keep communication channels open
throughout the office. We are mindful of ensuring effective
and efficient use of human, financial, IT, and procurement
resources in conducting OIG audits, evaluations,
investigations, and other support activities, and have a
disciplined budget process to see to that end.
  To carry out our responsibilities, the OIG must be
professional, independent, objective, fact-based,
nonpartisan, fair, and balanced in all its work. Also, the
Inspector General and OIG staff must be free both in fact and
in appearance from personal, external, and organizational
impairments to their independence. The OIG adheres to
the Quality Standards for Federal Offices of Inspector General,
issued by the President’s Council on Integrity and Efficiency
(PCIE) and the Executive Council on Integrity and Efficiency
(ECIE). Further, the OIG conducts its audit work in accordance
with generally accepted Government Auditing Standards;
its evaluations in accordance with PCIE Quality Standards
for Inspections; and its investigations, which often involve
allegations of serious wrongdoing that may involve potential
violations of criminal law, in accordance with Quality
Standards for Investigations established by the PCIE and ECIE,
and procedures established by the Department of Justice.
 Strong working relationships are fundamental to our
success. We place a high priority on maintaining positive
working relationships with the FDIC Chairman, Vice
Chairman, and other FDIC Board members and officials. The
OIG is a regular participant at Audit Committee meetings

  Office of Inspector General – Semiannual Report to the Congress 37
where recently issued audit and evaluation reports are                  the FDIC, to develop a strategic plan that broadly defines the
discussed. Other meetings occur throughout the year as OIG              agency’s mission and vision, an annual performance plan
officials meet with division and office leaders and attend and          that translates the vision and goals of the strategic plan into
participate in internal FDIC conferences and other forums.              measurable objectives, and an annual performance report
                                                                        that compares actual results against planned goals.
  The OIG also places a high priority on maintaining positive
relationships with the Congress and providing timely,                     The OIG strongly supports GPRA and is fully committed to
complete, and high quality responses to congressional                   applying its principles of strategic planning and performance
inquiries. In most instances, this communication would                  measurement and reporting to our operations. The OIG’s
include semiannual reports to the Congress, issued audit                Business Plan lays the basic foundation for establishing goals,
and evaluation reports, information related to completed                measuring performance, and reporting accomplishments
investigations, comments on legislation and regulations,                consistent with the principles and concepts of GPRA. We are
written statements for congressional hearings, contacts                 continuously seeking to better integrate risk management
with congressional staff, responses to congressional                    considerations in all aspects of OIG planning—both with
correspondence, and materials related to OIG appropriations.            respect to external and internal work.
  The Inspectors General appointed by the President                      To build and sustain a high-quality staff, effective
and confirmed by the Senate are members of the PCIE.                    operations, OIG independence, and mutually beneficial
We fully support and participate in PCIE activities and                 working relationships, the OIG’s 2008 performance goals are
coordinate closely with representatives from the other                  as follows:
financial regulatory OIGs. Additionally, the OIG meets with
                                                                            • Effectively and efficiently manage OIG human, financial,
representatives of the GAO to coordinate work and minimize
                                                                              IT, and physical resources
duplication of effort and with representatives of the
Department of Justice, including the FBI and U.S. Attorneys’                • Ensure quality and efficiency of OIG audits, evaluations,
Offices, to coordinate our criminal investigative work and                    investigations, and other projects and operations
pursue matters of mutual interest.
                                                                            • Encourage individual growth and strengthen human
 The FDIC OIG has its own strategic and annual planning                       capital management and leadership through
processes independent of the Corporation’s planning                           professional development and training
process, in keeping with the independent nature of the
                                                                            • Foster good client, stakeholder, and staff relationships
OIG’s core mission. The Government Performance and
Results Act of 1993 (GPRA) was enacted to improve the                       • Enhance OIG risk management activities
management, effectiveness, and accountability of federal
                                                                         A brief listing of OIG activities in support of these
programs. GPRA requires most federal agencies, including
                                                                        performance goals follows.

            Effectively and Efficiently Manage OIG Human, Financial, IT, and Physical Resources
     1     Continued realignment of the OIG investigative resources with FDIC regions, by reassigning OI staff and advertising
           vacancies.
     2     Conducted Virtual Workforce Training for all OIG staff to foster an office-wide understanding of issues related to
           implementing and carrying out a telework program that increases productivity, improves the quality of work life and morale,
           and best serves our entire office as we carry out our respective responsibilities under the Inspector General Act.
     3     Assessed the OIG’s FY 2007 operational improvement projects to determine whether the projects met intended goals and
           outcomes and to ensure continuity with similar or related efforts in FY 2008.
     4     Integrated a new feature in the OIG’s Training System to allow staff to scan in training certificates to document continuing
           professional education credits.
     5     Prepared informational materials outlining needed financial resources for presentation to the FDIC Chairman, OMB, and the
           House and Senate Appropriations Subcommittees in support of the OIG’s FY 2009 budget request.
     6     Ensured secure disposal of OIG old or excess hard drives.
     7     Conducted a project to upgrade STAR—the OIG’s audit and evaluation tracking system—and an associated review of how
           we are using TeamMate as we conduct audits and evaluations in the interest of leveraging that technology and ensuring
           efficiency in our work.
     8     Began to explore opportunities to leverage the resources of OI’s Electronic Crimes Unit and Office of Audits’ computer lab,
           staffs, equipment, and IT staff in the Office of Management.
     9     Continued to partner with DIT to ensure the security of OIG information in the FDIC computer network infrastructure.



38 Office of Inspector General – Semiannual Report to the Congress
            Ensure Quality and Efficiency of OIG Audits, Evaluations, Investigations,
                             and Other Projects and Operations
1   Completed revising Office of Audits’ Policy and Procedures Manual to address changes in Government Auditing Standards
    (Yellow Book), process changes deemed advisable as a result of an internal assignment management review, and external
    peer review results. Developed corresponding audit assignment management processes to ensure quality and efficiency.
2   Awarded a contract to a qualified firm to provide audit and evaluation services to the OIG to enhance the quality of our work
    and the breadth of our expertise as we conduct audits and evaluations and closely monitored contractor performance.
3   Continued to maintain and update the OIG’s Dashboard—a project management monitoring, tracking, and reporting tool for
    OIG projects.
4   Took steps to better track costs associated with audits and evaluations in the interest of economy and efficiency.
5   Continued use of the OIG’s end-of-assignment feedback forms to provide staff with input on performance of individual audit
    and evaluation assignments and incorporated suggested improvements to the form.
6   Developed a new Inspector General Feedback form for Office of Audits and Office of Evaluations assignments that focuses on
    overall assignment quality elements, including time, cost, and value.
7   Began to review and update Office of Evaluations policies and procedures.
8   Conducted quality control reviews of the OIG’s Hotline Program, OI headquarters’ offices (Northeast Region and the
    Electronic Crimes Unit), and the Southeast Region. Developed detailed plan for multiple quality control reviews of Office of
    Audits operations.
9   Participated in a best practices exchange program with the Tennessee Valley Authority OIG to share and learn from our
    respective best practices related to audits, evaluations, investigations, planning, internal management activities, and other
    projects and related systems and approaches.




Encourage Individual Growth and Strengthen Human Capital Management and Leadership
                    Through Professional Development and Training
1   Revised the OIG’s Career Development Plan forms, making them more aligned with OIG strategic goals and the training, skills,
    and experience needed to better achieve those goals. Also integrated OIG training plans in the revised form.
2   Advertised two Expressions of Interest—forensic accountant positions—to allow OIG staff with accounting skills to assist OIG
    investigators in conducting investigations of mortgage fraud and other financial institution fraud cases.
3   Continued to support members of the OIG attending long-term graduate banking school programs sponsored by Stonier, the
    Southeastern School of Banking at Vanderbilt University, and the University of Wisconsin to enhance OIG staff expertise and
    knowledge of the banking industry.
4   Carried out the OIG’s mentoring program and made plans for continuing and enhancing the program in FY 2008.
5   Held mid-year performance meetings to provide feedback and direction to staff on performance and professional
    development opportunities.




                                                                   Office of Inspector General – Semiannual Report to the Congress 39
                               Foster Good Client, Stakeholder, and Staff Relationships
     1      Maintained Congressional working relationships by providing our Semiannual Report to the Congress for the 6-month
            period ending September 30, 2007; meeting with staff from the Senate Committee on Banking, Housing, and Urban
            Affairs; communicating with and providing requested materials to the cognizant Subcommittees of the Senate and House
            Committees on Appropriations regarding our FY 2009 budget; notifying interested congressional parties regarding the OIG’s
            completed audit and evaluation work; attending FDIC-related hearings on issues of concern to various oversight committees;
            and coordinating congressional staff participation at the OIG’s Emerging Issues Symposium in November 2007.
     2      Responded to a request from the Chairman, House Committee on Oversight and Government Reform, for information
            concerning recommendations made by the OIG from January 1, 2001 through December 7, 2007 that had not been
            implemented by management officials. Reported that during the period in question, we issued 250 audit and evaluation
            reports containing a total of 841 recommendations. The OIG and FDIC management reached agreement on 837 of those
            recommendations, leaving 4 unimplemented recommendations from 3 reports. Of the four, FDIC management did not agree
            to implement two, and two had past due completion dates and had been rescheduled for closure in the future.
     3      Communicated with the FDIC Chairman, Vice Chairman, Director Curry, and other senior FDIC officials through the Inspector
            General’s regularly scheduled meetings with them and through other forums.
     4      Participated in DSC regional meetings to provide general information regarding the OIG and OI case studies on bank frauds
            that are of importance to DSC and the banking industry.
     5      Held quarterly meetings with FDIC Directors and other senior officials to keep them apprised of ongoing audit and
            evaluation reviews and results.
     6      Kept DSC, DRR, the Legal Division, and other FDIC program offices informed of the status and results of our investigative
            work impacting their respective offices. This was accomplished by notifying FDIC program offices of recent actions in OIG
            cases and providing OI’s quarterly reports to DSC, DRR, the Legal Division, and the Chairman’s Office outlining activity and
            results in our cases involving closed and open banks, and asset and restitution cases.
     7      Participated at Audit Committee meetings and presented planned 2008 assignments and the results of significant completed
            audits and evaluations for consideration by Committee members.
     8      Reviewed 14 draft corporate policies on a range of topics and raised 7 policy issues for consideration in the draft documents.
            Among the policies we reviewed were those related to the following: Public Disclosure Reports and Other Related Employee
            Ethics Forms Required to be Filed, IT Security Risk Management Program, FDIC Enterprise Architecture Program, Privacy
            Policies and Tracking Technologies on FDIC Web sites, and the FDIC Corporate Employee Program. Our comments are
            incorporated in final policy, as determined by FDIC management.
     9      Co-sponsored with the other financial regulatory Inspectors General from the Department of the Treasury, Federal Reserve
            Board, and National Credit Union Administration an Emerging Issues Symposium, with the theme: Consumer, Credit, and
            Capital Issues in a Changing Economy. Representatives from the regulatory agency OIGs and other government agencies
            came together to hear from leading experts and congressional staff about emerging issues that impact our collective and
            individual work and responsibilities.
    10      Supported the Inspector General community by attending monthly PCIE meetings and participating in PCIE Audit and
            Inspection & Evaluation Committee meetings; providing audit, investigative, and counsel resource assistance to the Federal
            Housing Finance Board and EX-IM OIGs; detailing an investigative agent to the Surveys and Investigations staff of the House
            Appropriations Committee; providing support to the Inspector General community’s investigative meetings and training
            activities; and successfully coordinating the writing and publishing of the Inspector General community’s FY 2007 Progress
            Report to the President.
     11     Met regularly with representatives of the OIGs of the federal banking regulators (Board of Governors of the Federal Reserve
            System, Department of the Treasury, National Credit Union Administration, Securities and Exchange Commission, Farm Credit
            Administration, Commodity Futures Trading Commission, Federal Housing Finance Board, and EX-IM Bank) to discuss audit
            and investigative matters of mutual interest.
    12      Continued to hold quarterly meetings of the OIG’s Employee Advisory Group to provide the elected staff an opportunity to
            meet with the Inspector General to discuss issues of OIG-wide interest or concern.
    13      Reviewed the Corporation’s Employee Engagement Survey results, with particular attention to results for the OIG in order to
            identify any areas of special concern.
    14      Developed a new Inspector General commendation award and related criteria to recognize OIG staff who had contributed in
            an outstanding manner to the mission of the FDIC OIG during the previous year.
    15      Continued to post and/or update information on the FDIC OIG Internet (www.fdicig.gov) and Intranet sites to ensure
            transparency and stakeholder accessibility to OIG products, including Semiannual Reports to the Congress, audit and
            evaluation reports, and investigation-related press releases.

40 Office of Inspector General – Semiannual Report to the Congress
                                 Enhance OIG Risk Management Activities
1   Continued efforts to carry out and monitor the OIG’s FY 2008 business planning process, including holding a quarterly
    meeting to assess progress, and began planning for FY 2009. Planned a series of internal OIG meetings to validate strategic
    and performance goals, and ensure ongoing research and analysis of significant activities and risks within the Corporation
    and the financial services industry.
2   Participated regularly at corporate meetings of the National Risk Committee to monitor emerging risks at the Corporation
    and tailor OIG work accordingly.
3   Provided the OIG’s assessment of the management and performance challenges facing the FDIC, in accordance with the
    Reports Consolidation Act of 2000. We identified the following broad areas of challenges: Identifying and Mitigating Risks
    to the Deposit Insurance Fund; Ensuring Institution Safety and Soundness Through Effective Examinations, Enforcement,
    and Follow-up; Contributing to Public Confidence in Insured Depository Institutions; Protecting and Educating Consumers
    and Ensuring Compliance Through Effective Examinations, Enforcement, and Follow-up; Being Ready for Potential Insured
    Institution Failures; and Promoting Sound Governance and Managing and Protecting Human, Financial, Information
    Technology, Physical, and Procurement Resources. Management included a detailed write-up of the challenges in its
    performance and accountability report.
4   Submitted the OIG’s 2007 Assurance Statement to the FDIC Chairman, in accordance with the annual requirement under
    which the OIG provides assurance that the OIG has made a reasonable effort to meet the internal control requirements of
    the Federal Managers’ Financial Integrity Act, OMB A-123, and other key legislation.
5   Provided the OIG’s perspectives related to internal fraud risk at the FDIC to GAO. We did so in response to GAO’s
    responsibility under Statement of Auditing Standards No. 99, Consideration of Fraud in Financial Statement Audits.
6   Identified key hard copy and electronic records that the OIG should maintain in a secure off-site location to ensure continuity
    of operations in the event of an emergency.
7   Participated in the Corporation’s position risk designation review to ensure the OIG’s designations accurately reflect the risk
    posed to the Corporation and that such designations are revised whenever the risk related to a position changes.
8   Monitored access to OIG space to ensure proper authorization of individuals with access. Also held meetings with OIG floor
    marshals to ensure their readiness to act in an office emergency situation.




                                                                   Office of Inspector General – Semiannual Report to the Congress 41
      Cumulative Results (2-year period)



          Nonmonetary Recommendations
         April 2006 - September 2006                       48
         October 2006 - March 2007                         35
         April 2007 - September 2007                       7
         October 2007 - March 2008                         52




      Products Issued and Investigations Closed
 45
 40
                                                      39
 35
 30
                                            30
 25
 20                                    21
                                                 23

 15        15                  15                                     Apr 06 - Sept 06
 10              11     12                                            Oct 06 - Mar 07
  5                                                                   Apr 07 - Sept 07
  0                                                                   Oct 07 - Mar 08
              Audits &                Investigations
             Evaluations




      Fines, Restitution, and Monetary Recoveries
      Resulting from OIG Investigations
      (in millions)
100

80                             86.9
                 75.6

60

40                      40.7
                                                                      Apr 06 - Sept 06
          27.2
20                                                                    Oct 06 - Mar 07
                                                                      Apr 07 - Sept 07
 0                                                                    Oct 07 - Mar 08




      42 Office of Inspector General – Semiannual Report to the Congress
Reporting Requirements
Index of Reporting Requirements - Inspector General Act of 1978, as amended


Reporting Requirements                                                                                                   Page

Section 4(a)(2): Review of legislation and regulations                                                                      44
Section 5(a)(1): Significant problems, abuses, and deficiencies                                                         11-36
Section 5(a)(2): Recommendations with respect to significant problems, abuses, and deficiencies                         11-36
Section 5(a)(3): Recommendations described in previous semiannual reports on which corrective
                                                                                                                            44
action has not been completed
Section 5(a)(4): Matters referred to prosecutive authorities                                                                10
Section 5(a)(5) and 6(b)(2): Summary of instances where requested information was refused                                   48
Section 5(a)(6): Listing of audit reports                                                                                   46
Section 5(a)(7): Summary of particularly significant reports                                                            11-36
Section 5(a)(8): Statistical table showing the total number of audit reports and the total dollar value of
                                                                                                                            47
questioned costs
Section 5(a)(9): Statistical table showing the total number of audit reports and the total dollar value of
                                                                                                                            48
recommendations that funds be put to better use
Section 5(a)(10): Audit recommendations more than 6 months old for which no management decision
                                                                                                                            48
has been made
Section 5(a)(11): Significant revised management decisions during the current reporting period                              48
Section 5(a)(12): Significant management decisions with which the OIG disagreed                                             48




                                                               Office of Inspector General – Semiannual Report to the Congress 43
Information Required by the
Inspector General Act of 1978,
as Amended


Review of Legislation and Regulations                                Table I: Significant Recommendations
          he FDIC OIG is tasked under the Inspector General          from Previous Semiannual Reports on

 T        Act of 1978 with reviewing existing and proposed
          legislation and regulations relating to programs
and operations of the Corporation. The FDIC OIG is required
                                                                     Which Corrective Actions Have Not Been
                                                                     Completed
by Section 5(a) of the Act to make recommendations in the                      his table shows the corrective actions management
semiannual report concerning the impact of such legislation
or regulations on the economy and efficiency in the
administration of programs and operations administered
                                                                      T        has agreed to implement but has not completed,
                                                                               along with associated monetary amounts. In some
                                                                     cases, these corrective actions are different from the initial
or financed by the Corporation or the prevention and                 recommendations made in the audit reports. However, the
detection of fraud and abuse in its programs and operations.         OIG has agreed that the planned actions meet the intent of
The Office of Counsel has been following the status of               the initial recommendations. The information in this table
various bills relating to the IG community, in particular            is based on (1) information supplied by FDIC’s OERM and
the Inspector General Reform legislation. Counsel is also            (2) the OIG’s determination of closed recommendations for
monitoring bills directed towards reforming the financial            reports issued after March 31, 2002. These 5 recommenda-
services industry, including Economic Stimulus legislation,          tions from 4 reports involve improvements in operations
Credit Card Billing Practices legislation, Foreclosure               and programs. OERM has categorized the status of these
Prevention legislation, and FHA Mortgage Refinancing                 recommendations as follows:
legislation. However the OIG has not provided written
comments on these bills to the Congress.
                                                                     Management Action in Process: (5 recommendations from
                                                                     4 reports)
                                                                      Management is in the process of implementing the
                                                                     corrective action plan, which may include modifications to
                                                                     policies, procedures, systems or controls; issues involving
                                                                     monetary collection; and settlement negotiations in
                                                                     process.




44 Office of Inspector General – Semiannual Report to the Congress
Table I: Significant Recommendations from Previous Semiannual Reports on Which
Corrective Actions Have Not Been Completed

                                 Significant
Report Number, Title &                          Brief Summary of Planned Corrective Actions and
                                 Recommendation
Date                                            Associated Monetary Amounts
                                 Number
  Management Action In Process
EVAL-06-014                5z                         Issue guidance clarifying corporate expectations for deposit
FDIC’s Industrial Loan                                insurance investigations and emphasizing that examiners
Company Deposit                                       should document the basis for their conclusions in the
Insurance Application                                 report of investigation.
Process
July 20, 2006
06-025                     3W                         Develop a written plan that defines a risk-based, enterprise-
Controls for Monitoring                               wide approach to audit logging and monitoring for the
Access to Sensitive                                   FDIC’s portfolio of information systems.
Information Processed by
FDIC Applications
September 29, 2006
EVAL-06-026                3                          Establish firm target dates and devote dedicated resources
FDIC’s Contract                                       for completing the Acquisition Policy Manual and related
Administration                                        contracting documents, contract clauses, and provisions.
September 29, 2006         13                         Define requirements for the new automated procurement
                                                      system, including to address the New Financial Environment
                                                      shortcomings identified in this report.

07-006                           3W                   Maintain documentation to ensure that all FDIC-issued
Management Report:                                    identification badges are authorized and approved by
Independent Evaluation                                appropriate officials.
of the FDIC’s Information
Security Program - 2006
March 28, 2007

z
    The OIG is reviewing management’s actions in response to the recommendation.
W
    The OIG has received some information but has requested additional information to evaluate management’s actions in
    response to the recommendation.




                                                                Office of Inspector General – Semiannual Report to the Congress 45
Table II: Audit Reports Issued by Subject Area

                         Audit Report                                       Questioned Costs         Funds Put
                                                                                                      to Better
   Number and Date                            Title                       Total        Unsupported       Use
   Supervision
 AUD-08-003                    FDIC’s Implementation of the
 November 30, 2007             USA PATRIOT Act
 AUD-08-005                    FDIC’s Consideration of
 February 7, 2008              Commercial Real Estate
                               Concentration Risk in
                               FDIC-Supervised Institutions
 AUD-08-009                    Implementation of FDIC’s
 March 31, 2008                Supervisory Guidance for
                               Nontraditional Mortgage
                               Products
   Insurance
 AUD-08-007                    FDIC’s Receipt and Assessment
 March 18, 2008                of Savings Association
                               Subsidiary Notices
   Consumer Protection
 AUD-08-002                    Examination Procedures for
 November 30, 2007             Assessing Selected Controls
                               Related to the Protection
                               of Customer and Consumer
                               Information at Multi-regional
                               Data Processing Servicers
   Resources Management
 AUD-08-001                    FDIC’s IT Disaster Recovery
 October 29, 2007              Capability
 AUD-08-004                    Verification of the FDIC’s
 January 28, 2008              Data Submissions through
                               the Governmentwide
                               Financial Report System as of
                               September 30, 2007
 AUD-08-006                    FDIC’s Replacement and
 March 12, 2008                Disposal Process for Laptop
                               Computers
 AUD-08-008                    FDIC’s Contract Oversight
 March 27, 2008                Management of the
                               Infrastructure Services
                               Contract

  Totals for the Period                                              $0                $0            $0


46 Office of Inspector General – Semiannual Report to the Congress
Table III: Evaluation Reports and Memoranda Issued

Number and Date            Title
Evaluation Reports
EVAL-08-001                FDIC’s Internal Risk Management Program
November 30, 2007
EVAL-08-002                FDIC’s Telework Program
December 6, 2007
EVAL-08-003                Evaluation of Contract Rationalization
January 2, 2008
EVAL-08-004                FDIC’s Transit Subsidy Program
January 3, 2008
Evaluation Memoranda
EM-08-001                  FDIC’s Evaluation of Deposit Insurance Claims and Payments System Solutions
February 4, 2008
EM-08-002                  Information Technology Procurement Integrity and Governance
March 4, 2008



Table IV: Audit Reports Issued with Questioned Costs

                                                                                Questioned Costs
                                                Number
                                                                         Total                       Unsupported
A. For which no management decision has              0                     0                                  0
   been made by the commencement of
   the reporting period.
B. Which were issued during the reporting            0                     0                                  0
   period.
Subtotals of A & B                                 0                       0                                  0
C. For which a management decision was             0                       0                                  0
   made during the reporting period.
   (i) dollar value of disallowed costs.           0                       0                                  0
   (ii) dollar value of costs not disallowed.      0                       0                                  0
D. For which no management decision has            0                       0                                  0
   been made by the end of the reporting
   period.
   Reports for which no management                 0                       0                                  0
   decision was made within 6 months of
   issuance.

                                                             Office of Inspector General – Semiannual Report to the Congress 47
Table V: Audit Reports Issued with Recommendations for Better Use of Funds

                                                                                          Number        Dollar Value
 A. For which no management decision has been made by the commencement of                      0              0
    the reporting period.
 B. Which were issued during the reporting period.                                             0              0
 Subtotals of A & B                                                                            0              0
 C. For which a management decision was made during the reporting period.                      0              0
     (i) dollar value of recommendations that were agreed to by management.                    0              0
         - based on proposed management action.                                                0              0
         - based on proposed legislative action.                                               0              0
     (ii) dollar value of recommendations that were not agreed to by management.               0              0
 D. For which no management decision has been made by the end of the                           0              0
    reporting period.
     Reports for which no management decision was made within 6 months of                      0              0
     issuance.


Table VI: Status of OIG Recommendations Without Management Decisions
 During this reporting period, there were no recommendations more than 6 months old without management decisions.



Table VII: Significant Revised Management Decisions
 During this reporting period, there were no significant revised management decisions.



Table VIII: Significant Management Decisions with Which the OIG Disagreed
 During this reporting period, there were no significant management decisions with which the OIG disagreed.



Table IX: Instances Where Information Was Refused
 During this reporting period, there were no instances where information was refused.




48 Office of Inspector General – Semiannual Report to the Congress
Congratulations
and Farewell
  The OIG congratulates two members of the OIG who
retired after distinguished federal careers.

                       Ken Meyd
                        Ken Meyd retired after 34 years
                      of federal service. His career began
                      in 1973 and included service as an
                      auditor with the Department of the
                      Army’s Army Audit Agency and later
                      the General Services Administration.
                      In June 1990, he joined the FDIC Office
                      of Inspector General as an auditor and
soon after joined the investigative ranks in February 1991.
In November 1992 he was promoted to a senior criminal
investigator in the Office of Investigations, a position he held
with distinction for over 15 years.
  Mr. Meyd’s work often involved the investigation of
restitution fraud resulting in the successful prosecution of
many high-profile FDIC debtors. His accomplishments were
often acknowledged and recognized by U.S. Attorneys, the
FDIC Legal Division, and others within the Inspector General
community. In October 2006, he received a prestigious
Award for Investigative Excellence from the President’s
Council on Integrity and Efficiency for his work on the
successful prosecution of Edwin T. McBirney. In other cases,
he provided invaluable assistance to the FDIC Legal Division
and the Division of Resolutions and Receiverships in the
negotiation of settlement agreements that resulted in
multi-million dollar payments to the FDIC.

                         Loretta Weibel
                        Loretta Weibel also retired after
                       34 years of federal service. Her
                       career began in June 1973 at the
                       Defense Contract Audit Agency
                       where she served for nearly 18
                       years. In February 1991, she joined
the Resolution Trust Corporation (RTC) Office of Inspector
General and transitioned to the FDIC at RTC’s sunset in 1995.
  Highlights of Ms. Weibel’s work at the RTC and FDIC
included: numerous contract and asset management
audits; participation on the team conducting a material loss
review of the failure of Southern Pacific Bank; audits and
evaluations of supervision and insurance activities within
the FDIC, particularly supervision and deposit insurance

  Office of Inspector General – Semiannual Report to the Congress 49
applications for industrial loan companies; and evaluations
of various corporate programs and activities, including one
of the first significant reviews of safeguards over personal
employee information.
  Her accomplishments were often acknowledged by
her management and colleagues, and others within the
Inspector General community. In October 2005, she received
a prestigious Award for Excellence from the President’s
Council on Integrity and Efficiency for her outstanding
work on the complex evaluation of the FDIC’s approach for
supervising limited-charter depository institutions. Again
in October 2006, her work on safeguarding personal FDIC
employee information was recognized with a well-deserved
second Award for Excellence from the Inspector General
community.




50 Office of Inspector General – Semiannual Report to the Congress
                                                                 he FDIC OIG is a proud member of the President’s Council

                                                         T       on Integrity and Efficiency, whose fiscal year 2007
                                                                 significant activities and accomplishments, along with
                                                        those of the member agencies of the Executive Council on Integrity
                                                        and Efficiency were captured in the Inspector General community’s
                                                        annual report, A Progress Report to the President, Fiscal Year 2007.
                                                          In fiscal year 2007, the Inspectors General identified potential
                                                        dollar savings as well as program efficiencies and enhancements
                                                        from a range of audits, investigations, evaluations, and inspections.
                                                        The Inspector General community was also responsible for
                                                        successful investigations of individuals and entities who threatened
                                                        government integrity and the public trust. Cumulatively, these
                                                        efforts resulted in: $11.4 billion in potential savings from audit
                                                        recommendations; $5.1 billion from investigative recoveries and
                                                        receivables; over 6,800 indictments and criminal informations; over
                                                        8,900 successful criminal prosecutions; about 4,300 suspensions or
                                                        debarments; and nearly 310,000 hotline complaints processed.
                                                          The 2007 annual report also focuses on the many collaborative
                                                        efforts of Inspectors General across government. By joining forces to
                                                        tackle issues of mutual concern, the Inspector General community
                                                        has leveraged resources to better address current multi-agency
The Federal Deposit Insurance Corporation (FDIC)        problems, working proactively to prevent such problems in the
is an independent agency created by the Congress        future.
to maintain stability and confidence in the nation’s      As noted in the report, the Inspector General community
banking system by insuring deposits, examining          also continued to commit a substantial portion of its resources
and supervising financial institutions, and managing    to auditing agency financial statements. Collectively, this
receiverships. Approximately 4,500 individuals          effort represents one of the largest financial statement audit
                                                        engagements ever undertaken. Similarly, Inspectors General played
within seven specialized operating divisions and        a key role in performing annual evaluations of agency information
other offices carry out the FDIC mission throughout     system security and privacy protection. Finally, by identifying
the country. According to most current FDIC data,       and helping agencies address management and performance
the FDIC insured $4.29 trillion in deposits for 8,544   challenges, Inspectors General fostered government accountability
institutions, of which the FDIC supervised 5,192. The   and transparency, all on behalf of the U.S. taxpayers.
Corporation held insurance funds of $52.4 billion to     For access to this report and a more detailed look at the Inspector
ensure depositors are safeguarded.                      General community, visit www.ignet.gov/pcieecie1.html.
                                              The Office of Inspector General
                                            (OIG) Hotline is a convenient
                                            mechanism employees,
                                            contractors, and others can use
                                            to report instances of suspected
                                            fraud, waste, abuse, and
mismanagement within the FDIC and its contractor operations. The OIG
maintains a toll-free, nationwide Hotline (1-800-964-FDIC), electronic mail
address (IGhotline@FDIC.gov), and postal mailing address. The Hotline
is designed to make it easy for employees and contractors to join with
the OIG in its efforts to prevent fraud, waste, abuse, and mismanagement
that could threaten the success of FDIC programs or operations.
 To learn more about the FDIC OIG and for more information on audit
and evaluation reports discussed in this Semiannual Report, visit our
homepage: http://www.fdicig.gov



Federal Deposit Insurance Corporation
Office of Inspector General
3501 Fairfax Drive
Arlington, VA 22226
